<html>
<title> - DHS'S EFFORT TO SECURE .GOV</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                      DHS'S EFFORT TO SECURE.GOV

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                     CYBERSECURITY, INFRASTRUCTURE
                        PROTECTION, AND SECURITY
                              TECHNOLOGIES

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 24, 2015

                               __________

                           Serial No. 114-23

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 

                                    

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________
                               
                     U.S. GOVERNMENT PUBLISHING OFFICE
96-169 PDF                 WASHINGTON : 2015                     
                               
_______________________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bfd8cfd0ffdccacccbd7dad3cf91dcd0d291">[email&#160;protected]</a>  

                              
                               
                               
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

                   Michael T. McCaul, Texas, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Peter T. King, New York              Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Candice S. Miller, Michigan, Vice    James R. Langevin, Rhode Island
    Chair                            Brian Higgins, New York
Jeff Duncan, South Carolina          Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             William R. Keating, Massachusetts
Lou Barletta, Pennsylvania           Donald M. Payne, Jr., New Jersey
Scott Perry, Pennsylvania            Filemon Vela, Texas
Curt Clawson, Florida                Bonnie Watson Coleman, New Jersey
John Katko, New York                 Kathleen M. Rice, New York
Will Hurd, Texas                     Norma J. Torres, California
Earl L. ``Buddy'' Carter, Georgia
Mark Walker, North Carolina
Barry Loudermilk, Georgia
Martha McSally, Arizona
John Ratcliffe, Texas
Daniel M. Donovan, Jr., New York
                   Brendan P. Shields, Staff Director
                    Joan V. O'Hara,  General Counsel
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

SUBCOMMITTEE ON CYBERSECURITY, INFRASTRUCTURE PROTECTION, AND SECURITY 
                              TECHNOLOGIES

                    John Ratcliffe, Texas, Chairman
Peter T. King, New York              Cedric L. Richmond, Louisiana
Tom Marino, Pennsylvania             Loretta Sanchez, California
Scott Perry, Pennsylvania            Sheila Jackson Lee, Texas
Curt Clawson, Florida                James R. Langevin, Rhode Island
Daniel M. Donovan, Jr., New York     Bennie G. Thompson, Mississippi 
Michael T. McCaul, Texas (ex             (ex officio)
    officio)
               Brett DeWitt, Subcommittee Staff Director
                    Dennis Terry, Subcommittee Clerk
       Christopher Schepis, Minority Subcommittee Staff Director
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable John Ratcliffe, a Representative in Congress From 
  the State of Texas, and Chairman, Subcommittee on 
  Cybersecurity, Infrastructure Protection, and Security 
  Technologies:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Cedric L. Richmond, a Representative in Congress 
  From the State of Louisiana, and Ranking Member, Subcommittee 
  on Cybersecurity, Infrastructure Protection, and Security 
  Technologies...................................................     4
The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Committee on Homeland 
  Security.......................................................     6
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Prepared Statement.............................................     8

                               WITNESSES
                                Panel I

Mr. Andy Ozment, Assistant Secretary, Office of Cybersecurity and 
  Communications, National Protections and Programs Directorate, 
  U.S. Department of Homeland Security:
  Oral Statement.................................................     9
  Prepared Statement.............................................    11
Mr. Gregory C. Wilshusen, Director, Information Security Issues, 
  Government Accountability Office:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                                Panel II

Mr. Daniel M. Gerstein, The Rand Corporation:
  Oral Statement.................................................    36
  Prepared Statement.............................................    38

                                APPENDIX

Questions From Chairman John Ratcliffe for Andy Ozment...........    51
Questions From Honorable James R. Langevin for Andy Ozment.......    51
Questions From Chairman John Ratcliffe for Gregory C. Wilshusen..    52
Questions From Chairman John Ratcliffe for Daniel M. Gerstein....    54

 
                      DHS'S EFFORT TO SECURE .GOV

                              ----------                              


                        Wednesday, June 24, 2015

             U.S. House of Representatives,
                    Committee on Homeland Security,
 Subcommittee on Cybersecurity, Infrastructure Protection, 
                                 and Security Technologies,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:42 p.m., in 
Room 311, Cannon House Office Building, Hon. John Ratcliffe 
[Chairman of the subcommittee] presiding.
    Present: Representatives Ratcliffe, Perry, Clawson, 
Donovan, McCaul, Richmond, Jackson Lee, and Langevin.
    Mr. Ratcliffe. The Homeland Subcommittee on Cybersecurity, 
Infrastructure Protection, and Security Technologies will come 
to order.
    The subcommittee meets today to hear what the Department of 
Homeland Security is doing to secure U.S. Government networks 
from cyber hackers. The magnitude of the latest breach at the 
Office of Personnel Management, or OPM, and the impact that it 
will have on tens of millions of Americans and our National 
security for decades to come is simply unacceptable.
    OPM was warned about its poor IT security. Yet, we still 
found them asleep at the switch. To put it in perspective, OPM 
was responsible for safeguarding extremely sensitive data, 
personnel files, and security clearance information for tens of 
millions of Federal employees. Yet, OPM's efforts to secure its 
networks were frankly laughable. The stakes were immense. Yet, 
the cybersecurity efforts were pathetic. In my opinion, this 
could be classified as cybersecurity malpractice.
    The Federal agency guarding this sensitive information 
demonstrated gross negligence and willful disregard of earlier 
warnings. We need to know who in this administration is really 
in charge and who is truly responsible for securing our Federal 
Government's civilian information systems.
    The nature of the compromised data is particularly 
concerning because it contained the personally identifiable 
information, or PII, of what is now known to be at least 14 
million Federal and Congressional employees and military 
personnel. Not only did we fail to protect that PII, we failed 
to protect the security clearance background check information 
contained on the Questionnaire for National Security Position 
form, also known as the SF-86.
    The individuals who serve our country, often risking their 
lives, disclose substantial personal information on these forms 
to get special clearances to handle our Government's secrets, 
and they have every right to expect that their information will 
be safe. But, as we have learned, OPM struggled to implement 
even the most basic network security protocols.
    This was spelled out in the November 2014 inspector general 
report 1 month before the breach occurred. The Government 
Accountability Office has drawn similar conclusions. 
Specifically, the inspector general found lackluster 
information security governance and even recommended that OPM 
shut down all of its information systems that lacked the valid 
authorization.
    Additionally, in 2014, DHS presented to OPM a mitigation 
plan with recommendations for improving its information 
security. The question then is why the recommendations from DHS 
and others were not required and fully implemented by OPM.
    Unfortunately, the White House response to the OPM breach 
has been incredibly disappointing. The Federal Government was 
attacked. Yet, there is no indication that there will be any 
consequences from these actions. In addition, the U.S. Chief 
Information Officer, Tony Scott, has called for a, ``30-day 
cybersecurity sprint,'' for Federal agencies to secure their 
networks and data.
    So the White House is essentially calling on Federal 
agencies to step up and do in the next 30 days what they were 
already required to do. Our country's cybersecurity shouldn't 
be a 30-day sprint exercise, but, rather, a dedicated marathon, 
a long, sustained, and comprehensive effort to protect our 
country from escalating and rapidly evolving cyber attacks. 
This administration's response is superficial. It is not 
serious, and it doesn't reflect the gravity of the threats 
facing our Nation right now in cyber space.
    It is clear that the Nation is under attack, under siege, 
by state and non-state actors and our defenses at OPM and in 
the Federal Government are woefully inadequate. As such, in 
this hearing today, we will examine the cyber capabilities that 
DHS is providing to OPM and to other Federal civilian agencies, 
how quickly these tools are being deployed Government-wide, 
and, ultimately, what vulnerabilities and gaps remain in our 
cybersecurity posture.
    Last December Congress passed the Federal Information 
Modernization Act, or FISMA, to give DHS the authority to carry 
out the operational activities to protect Federal civilian 
information systems from cyber intrusions. Now that DHS has 
these authorities, we want to hear how DHS plans to execute the 
new law and rapidly implement its binding directives and other 
Federal information security capabilities to more quickly 
secure the .gov domain.
    Additionally, DHS' EINSTEIN and Continuous Diagnostics and 
Mitigation program, or CDM, were designed to protect Federal 
civilian agency systems. Yet, not every Federal agency has 
adopted them. Why is that the case?
    Although these programs aren't a silver bullet to prevent 
further cyber attacks, both play a vital role in what should be 
a defense-in-depth cybersecurity strategy. Now more than ever 
DHS needs to rapidly deploy its cyber capabilities and show 
strong leadership to protect our Government's networks and most 
sensitive information from cyber hackers.
    I also hope that, if nothing else, this latest attack on 
OPM servers will prove to be a catalyst to get the United 
States Senate to act and pass the strong and bipartisan House-
passed cybersecurity information-sharing legislation.
    These bills would, in part, authorize DHS' EINSTEIN program 
and allow for greater sharing of cyber threat indicators so 
both the public and private sectors can more effectively block 
known and malicious cyber intrusions.
    From my vantage point as Chairman of this subcommittee and 
as a former terrorism prosecutor, cybersecurity is National 
security. The United States Government is under cyber attack 
from nation-states and criminal groups, and I look forward to 
hearing from our witnesses today on what the Department of 
Homeland Security is doing about it.
    [The statement of Chairman Ratcliffe follows:]
                  Statement of Chairman John Ratcliffe
                             June 24, 2015
    The subcommittee meets today to hear what the Department of 
Homeland Security is doing to secure the U.S. Government's networks 
from cyber hackers. The magnitude of the latest breach at the Office of 
Personnel Management (OPM), and the impact it will have on tens of 
millions of Americans and our National security for decades to come, is 
simply unacceptable. OPM was warned about its poor IT security; yet we 
still found them asleep at the switch. To put it into perspective, OPM 
was responsible for safeguarding extremely sensitive data-personnel 
files and security clearance information for tens of millions of 
Federal employees--yet OPM's efforts to secure its network were 
laughable. The stakes were immense, yet the cybersecurity efforts were 
pathetic. In my opinion, this could be classified as a ``cybersecurity 
malpractice'' of sorts. The Federal agency guarding this sensitive 
information demonstrated gross negligence and willful disregard of 
earlier warnings. We need to know who in this administration is in 
charge, and who is responsible for securing our Federal Government's 
civilian information systems.
    The nature of the compromised data is particularly concerning 
because it contained the personally identifiable information (PII) of 
up to 14 million Federal and Congressional employees, and military 
personnel. Not only did we fail to protect PII, we failed to protect 
the security clearance background check information contained on the 
Questionnaire for National Security Positions form, called an SF-86. 
The individuals who serve our country, often risking their lives, 
disclose substantial personal information on these forms to get special 
clearances to handle our Government's secrets and expect their 
information will be safe.
    As we've learned, OPM struggled to implement even the most basic 
network security protocols. This was spelled out in a November 2014 
Inspector General report, 1 month before the breach occurred. The 
Government Accountability Office has drawn similar conclusions. 
Specifically, the IG found lackluster information security governance 
and even recommended that OPM shut down all its information systems 
that lacked a valid authorization. Additionally in 2014, DHS presented 
to OPM a mitigation plan with recommendations for improving its 
information security. The question, then, is why the recommendations 
from DHS and others were not required and fully implemented by OPM?
    Unfortunately, the White House response to the OPM breach has been 
extremely disappointing. The Federal Government was attacked, yet there 
is no indication that there will be consequence for these actions. 
Additionally, the U.S Chief Information Officer Tony Scott has called 
for a ``30-day cybersecurity sprint'' for Federal agencies to secure 
their networks and data. The White House is essentially calling on 
Federal agencies to do in the next 30 days what they were already 
required to do. Our country's cybersecurity should not be a sprint 
exercise; but rather a marathon--a long, sustained, and comprehensive 
effort to protect our country from escalating and rapidly evolving 
cyber-attacks. This administration's response is not serious and does 
not reflect the gravity of the threats facing our Nation in cyberspace.
    It is clear that the Nation is under siege by state and non-state 
actors, and our defenses at OPM and in the Federal Government are 
woefully inadequate. As such, today we will examine the cyber 
capabilities that DHS is providing to OPM and other Federal civilian 
agencies, how quickly these tools are being deployed Government-wide, 
and ultimately, what vulnerabilities and gaps remain in our 
cybersecurity posture.
    Last December, Congress passed the Federal Information 
Modernization Act (FISMA) to give DHS the authority to carry out the 
operational activities to protect Federal civilian information systems 
from cyber intrusions. Now that DHS has these authorities, we want to 
hear how DHS plans to execute the new law and rapidly implement its 
binding directives and other Federal information security capabilities 
to more quickly secure the .gov domain. Additionally, DHS' Einstein and 
Continuous Diagnostics and Mitigation (CDM) programs were designed to 
protect Federal civilian agencies' systems, yet not every Federal 
agency has adopted them. Why is that the case? Although these programs 
are not a silver bullet to preventing further cyber attacks, both play 
a vital role in what should be a ``defense-in-depth'' cybersecurity 
strategy. Now more than ever, DHS needs to rapidly deploy its cyber 
capabilities, and show strong leadership to protect our Government's 
networks and most sensitive information from cyber hackers.
    I also hope that if nothing else, this latest attack will prove to 
be a catalyst to get the Senate to act and pass the strong and 
bipartisan House-passed cybersecurity information sharing legislation. 
These bills would, in part, authorize DHS' Einstein program and allow 
for greater sharing of cyber threat indicators so both the public and 
private sectors can more effectively block known and malicious cyber 
intrusions.
    From my vantage point as Chairman of this subcommittee and a former 
terrorism prosecutor, cybersecurity is National security. The U.S. 
Government is under cyber-attack from nation-states and criminal groups 
and I look forward to hearing from our witnesses today on what the 
Department of Homeland Security is doing about it.

    Mr. Ratcliffe. The Chairman now recognizes the Ranking 
Minority Member of the subcommittee, the gentleman from 
Louisiana, Mr. Richmond, for any statements that he may have.
    Mr. Richmond. Thank you, Mr. Chairman. Thank you for 
convening this hearing on DHS' responsibilities in helping all 
of the Federal agencies secure their cyber networks and 
databases.
    I want to welcome our witnesses, Dr. Ozment, Mr. Wilshusen, 
and Dr. Gerstein. Thank you for taking the time to appear 
before us today.
    Securing the Federal Government's networks and databases is 
a monumental task. DHS has been charged with the primary task 
to coordinate and provide cybersecurity guidance for the many 
Federal agencies, critical infrastructure sectors, and 
Government programs, whether it be Government, personnel 
information, Classified background information, patents, 
taxpayer data, nuclear facilities, health records, port 
complexes, or any number of other vital Government services.
    However, under the Federal Information Security 
Modernization Act of 2014, FISMA, the White House Office of 
Management and Budget is responsible for Federal information 
security, oversight, and policy issuance.
    However, OMB executes its responsibilities in close 
coordination with its Federal cybersecurity partners, including 
the Department of Homeland Security and the Department of 
Commerce's National Institute of Standards and Technology.
    Both state and non-state actors are attempting to breach 
our Government and commercial systems. As President Obama said 
a few days ago, this problem is not going to go away. It is 
going to accelerate.
    I think we all recognize that certifying the security of 
information on the Federal Government's networks and systems 
should remain a core focus of the administration as we here in 
Congress should continue to be looking at innovative solutions 
that provide DHS with the authorities to respond quickly to the 
new challenges as they arise, and Congress must continue our 
search for legislative initiatives that will help further 
protect our Nation's critical networks and systems.
    As a result of the latest Government network breaches, we 
have been told that OMB has launched a 30-day cybersecurity 
sprint, a review and recommendations effort. The review team is 
made up of OMB, the White House E-Gov Cyber National Security 
Unit, the National Security Council Cybersecurity Directorate, 
the Department of Homeland Security, and Department of Defense, 
among other agencies.
    As part of the effort, OMB has instructed Federal agencies 
to immediately take a number of steps to protect Federal 
information and assets and improve the resilience of Federal 
networks.
    Specifically, Federal agencies must immediately deploy 
indicators provided by DHS which can identify priority threat 
active techniques and tactics and procedures and tools to scan 
systems and check logs; No. 2, patch critical vulnerabilities 
without delay and report to OMB and DHS on the progress and 
challenges within 30 days; No. 3, tighten policies and 
practices for privileged users; and, No. 4, dramatically 
accelerate implementation of multi-factor identification, 
especially for privileged users.
    While I am pleased to see the White House taking immediate 
action, all of the above efforts are generally recognized as 
security measures that should already be in place, especially 
in vital Government networks.
    I hope to hear today from our witnesses a clear explanation 
why many of the standard recognized security practices were not 
in place in Federal agencies and clearly identify the plan that 
DHS has to make sure and certify that Federal agencies' 
cybersecurity standards are up to date.
    Of particular interest to me in my district and I know to 
others on this subcommittee is the status of port 
cybersecurity. Overall maritime ports handle more than $1.3 
trillion in cargo annually. The operations of these ports are 
supported by information and communications systems that, like 
all other network systems, are susceptible to cyber-related 
threats.
    Failures in these systems could degrade or interrupt 
operations at ports, including the flow of commerce. Federal 
agencies--in particular, DHS--and industry stakeholders have 
specific roles in protecting maritime facilities and ports from 
physical and cyber threats.
    GAO did an audit last year of maritime port cybersecurity 
efforts to assess actions taken by DHS and two of its front-
line component agencies, the U.S. Coast Guard and FEMA, as well 
as other Federal agencies.
    The GAO found that, while the Coast Guard initiated a 
number of activities and coordinating strategies to improve 
physical security in specific ports, it has not conducted a 
risk assessment that fully addresses cyber-related threats, 
vulnerabilities, and consequences.
    The report also noted that FEMA identified enhancing 
cybersecurity capabilities as a funding priority for the first 
time in 2013.
    I look forward to today's testimony on both of these 
issues. It will be crucial that stakeholders appropriately plan 
and allocate resources to protect ports and other maritime 
facilities from increasingly persistent and pervasive cyber 
intrusions.
    With that, Mr. Chairman, I yield back.
    Mr. Ratcliffe. The gentleman yields back.
    The Chairman now welcomes and recognizes the Chairman of 
the full committee, the gentleman from Texas, Mr. McCaul, for 
his opening statement.
    Mr. McCaul. I would like to thank Chairman Ratcliffe for 
his leadership in holding this hearing today.
    Our Government, in my opinion, is still reeling from what 
appears to be the most significant breach of Federal networks 
in U.S. history. This insidious attack was aimed at Federal 
employees who handle our National security, many with security 
clearances working to defend our country. Yet, the 
administration failed to defend them.
    Instead, it appears that Chinese hackers were able to cut 
through our defenses and extract information about millions of 
current and former U.S. Government employees with sensitive 
security clearances.
    As one who has filled these out in the past--I know the 
Chairman has as well in our tenure at the Justice Department--
it is astounding to me that these very sensitive documents went 
unprotected by the administration.
    There can be no doubt that this attack will lead to more 
brazen attempts to steal America's secrets. Yet, there is no 
telling if we will be lucky enough to spot it the next time. 
Clearly the administration needs to take this more seriously.
    What is equally appalling to me is the administration's 
response. No Government employee has been held accountable. No 
foreign adversary has been warned. No one can say with any 
degree of confidence whether we can stop this from happening 
again.
    We talk often now about how we have entered a new age that 
requires new rules of the road. It is very true. I think this 
is a watershed moment. It appears now that a foreign country 
has invaded our networks and stolen sensitive data.
    Yet, the administration's response is not to promise 
retaliation. Instead, it has promised to add the issue to the 
agenda of this week's strategic dialogue with China. I would 
submit that is not strong enough. There are no consequences to 
the actions.
    What if this had been a foreign adversary invading our 
territory instead of our networks to steal secrets? How would 
the White House respond then? What if foreign espionage, we 
caught them physically stealing the paper files? What would be 
the response? This is the same action, just in the digital 
world.
    The abilities of our cyber adversaries are no secret. The 
alarm bell has been going off for years. In 2012, Iran hackers 
hit Saudi Arabia's national oil company, Aramco, destroying 
30,000 computers.
    Iran has targeted major U.S. banks to shut down websites 
and restrict Americans' ability to access their accounts. We 
have seen intrusions into Target, Neiman Marcus, Home Depot, 
J.P. Morgan. All these were designed to steal the personal 
information of private citizens.
    In December, North Korea used a digital bomb to destroy 
computer systems at Sony Pictures, an attack that was 
destructive, but also a cowardly attempt to stifle our freedom 
of expression.
    In just this year we have seen the breaches of two major 
health care companies, Anthem and Premera, that together 
affected up to 90 million Americans.
    I hope this latest breach will stir our Government to 
action and, quite frankly, the Congress in a frank 
acknowledgment that we have fallen behind.
    Our Government is responsible for providing for the common 
defense under the Constitution, and that also means defending 
our cyber space.
    During the last Congress, I led the efforts to strengthen 
our cybersecurity foundations, and we managed to get five key 
cybersecurity bills passed into law. We did this with the 
support of both industry and privacy advocates.
    This year we passed legislation in the House to enhance 
cyber threat information sharing, which possibly could have 
prevented this attack from occurring if we had the signature 
threat information to block the breach from China.
    In light of this attack--you know, we always say around 
here it is going to take a big event for Congress to act. I 
think the big event has happened and now it is time for 
Congress to act.
    The House has acted. It is now time for the Senate to act 
and pass the bill that we passed out of the House with 
overwhelming bipartisan support, 355 votes, supported by both 
industry and privacy.
    The Department of Homeland Security has several cyber tools 
to defend these networks, such as the EINSTEIN and the 
Continuous Diagnostics and Mitigation program that were 
authorized in our bill as well.
    But these are only effective if they have been deployed to 
our sprawling and disparate Federal networks. As of now, only 
half of the Federal civilian agencies have deployed the latest 
version of EINSTEIN.
    I know, Dr. Ozment, you and I have talked about this. I 
commend your efforts in expanding this now. Getting just to the 
50 percent was quite an accomplishment. But I think we want to 
hear about the expansion all across the Federal Government, 
which I think would protect the networks better.
    This digital frontier and safeguarding it is one of our 
leading National security challenges of our time, and we, as 
Americans, need to apply the same innovation, discipline, and 
creativity that produced the information age into protecting 
what we have created.
    I want to thank the Chairman again for holding this 
hearing. With that, I yield back.
    Mr. Ratcliffe. I thank the Chairman.
    Other Members of the committee are reminded that opening 
statements may be submitted for the record.
    [The statement of Ranking Member Thompson follows:]
             Statement of Ranking Member Bennie G. Thompson
                             June 24, 2015
    I thank the leadership of this subcommittee for continuing to focus 
on our Nation's most pressing cyber vulnerabilities--protecting our 
Nation's critical infrastructure systems, and protecting citizens and 
Federal workers and their personal information. Over the past few 
months, the committee has found the repeated news that some of our most 
valuable Government agencies have been infiltrated, and Government 
employees' detailed personal information have been exposed quite 
appalling.
    We have seen the Internal Revenue Service breached. At the Defense 
Department, Secretary Carter has told us about the Russian's hacking 
from earlier this year, and now, we have a multi-layered exposure of 
Federal workers exposed in an Office of Personnel Management incident. 
Our networks and databases cannot be protected by one protocol, one 
sophisticated procedure, or one magic arrow. We have cybersecurity 
programs in place, but for them to take hold, either in the private 
sector or across Government agencies, it will require leadership, 
cooperation, and accountability. For example, the President's 
cybersecurity Executive Order 13636 has charged the Department of 
Homeland Security to be the motivator, teacher, and implementer of the 
art and science of network and database security, across the Federal 
Government.
    However, for DHS to fulfill this mission, it has to engage with 
both the public and private sectors. I want to hear more from Dr. 
Ozment on how DHS is fulfilling this mission, and how it has responded 
to previous intrusions. It is important for all of us to remember that 
cybersecurity is a shared responsibility, and that no single approach 
can protect us completely. Cyber threat protection is a complex and 
incomplete process and it crosses several important intersections, 
especially regarding privacy and civil liberties.
    As people and Government become more dependent on technology, 
technology-based opportunities for crime, espionage, and physical 
disruption will most certainly increase. Today, some contend that 
greater security means ceding some degree of personal privacy, or vice 
versa. But in my book, cybersecurity enables privacy--because it 
protects individuals, companies, and governments from malicious 
intrusions. Privacy and security are not competing interests; we can 
and must do both. The United States can set a positive example 
regarding the role that cybersecurity standards play globally, for both 
industry and Government. If we can develop effective, secure protocols 
and standards that are easily implemented, it will represent an 
important opportunity for U.S. products around the globe.
    Finally, I would be remiss if I did not mention the cost of these 
programs discussed today. All of this cybersecurity effort does not 
come cheap. While the majority has seen fit to increase cybersecurity 
funding by large amounts in some cases, House and Senate Republicans 
have started to show how they plan to budget at discretionary levels 
for other programs.
    Compared to the President's budget, their budget will force cuts in 
areas critical to the economy, as well as in National security 
priorities. Homeland security, peacekeeping efforts, defense, and 
foreign assistance will be impacted. These funding levels are the 
result of Congressional Republicans' decision to lock in the funding 
cuts imposed by sequestration. As we all know, sequestration was never 
intended to take effect: Rather, it was supposed to threaten such 
drastic cuts to both defense and non-defense funding that policymakers 
would be motivated to come to the table and reduce the deficit through 
smart, balanced reforms. Unfortunately, the bills and appropriations 
targets released to date double-down on a very different approach.

    Mr. Ratcliffe. We are pleased to have with us today a panel 
of distinguished witnesses on this important topic.
    Dr. Andy Ozment is the assistant secretary for the Office 
of Cybersecurity and Communications within the National 
Protections and Programs Directorate at the United States 
Department of Homeland Security.
    Welcome back, Dr. Ozment.
    Mr. Greg Wilshusen is the director for information security 
issues at the Government Accountability Office.
    We're glad to have you with us today, sir.
    At this time I will ask both witnesses to stand and raise 
your right hand so that I may swear you in to provide 
testimony.
    [Witnesses sworn.]
    Mr. Ratcliffe. You may be seated.
    The witnesses' full written statements will appear in the 
record.
    The Chairman now recognizes Dr. Ozment for 5 minutes for 
his opening statement.

   STATEMENT OF ANDY OZMENT, ASSISTANT SECRETARY, OFFICE OF 
  CYBERSECURITY AND COMMUNICATIONS, NATIONAL PROTECTIONS AND 
   PROGRAMS DIRECTORATE, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Ozment. Thank you, Chairman Ratcliffe, Ranking Member 
Richmond, and Chairman McCaul, Members of the committee. I 
appreciate the opportunity to appear before you today.
    Like you, my fellow panelists, and countless Americans, I 
am deeply concerned about the recent compromise at OPM, and I 
am dedicated to ensuring that we take all necessary steps to 
protect our Federal workforce and to drive forward the 
cybersecurity of the entire Federal Government.
    As a result, I want to focus these remarks on how DHS is 
accelerating our efforts to protect Federal agencies and help 
Federal agencies better protect themselves.
    To begin, it is important to note that we are now making up 
for 20 years of underinvestment in cybersecurity across both 
the public and the private sector. At the same time, we are 
facing a major challenge in protecting our most sensitive 
information against sophisticated, well-resourced, and 
persistent adversaries. This is a complex problem without a 
simple solution.
    To effectively address this challenge, our Federal agencies 
need to deploy defense-in-depth. Consider protecting a 
Government facility. Adequate security is not only a fence or a 
camera or locking the doors of a building, but a combination of 
these measures and others that, in aggregate, make it difficult 
for an adversary to gain physical access. Cybersecurity also 
requires multiple layers of security measures. No one measure 
is sufficient.
    Under legislation passed by this Congress last year, 
Federal agencies are responsible for their own cybersecurity. 
To assist them, DHS provides a common baseline of cybersecurity 
across the civilian government.
    It helps agencies manage their cyber risk through four key 
lines of effort:
    First, we protect agencies by providing a common set of 
capabilities through the EINSTEIN and Continuous Diagnostics 
and Mitigation, or CDM, programs.
    Second, we measure and motivate agencies to implement best 
practices.
    Third, we serve as a hub for information sharing.
    Finally, we provided incident response assistance when 
agencies suffer a cyber intrusion.
    In my statement this morning, I will focus on the first 
area, how DHS provides a baseline of security through EINSTEIN 
and CDM. I have described the other three areas in my written 
statement, and I am happy to take your questions on them. Our 
first line of defense against cyber threats is the EINSTEIN 
system, which protects agencies at their perimeters.
    Returning to the analogy of a Government facility that I 
mentioned earlier, EINSTEIN 1 is similar to a camera at the 
road onto the facility that records all traffic and identifies 
anomalies in the numbers of cars. EINSTEIN 2 adds the ability 
to detect suspicious cars based upon a watch list. EINSTEIN 2 
does not stop the cars, but sounds the alarm if a suspicious 
car enters the facility.
    Agencies report that EINSTEIN 1 and 2 are screening over 90 
percent of all Federal civilian traffic. EINSTEIN 1 and 2 
played a key role in identifying the recent compromise at the 
Department of Interior.
    The latest phase of the program, known as EINSTEIN 3A, is 
akin to a guard post at the highway that leads to multiple 
Government facilities. EINSTEIN 3A uses Classified information 
to look at the cars and compare them with a watch list. 
EINSTEIN 3A then actively blocks prohibited cars from entering 
the facility.
    As the Chairman noted, we are accelerating our efforts to 
protect all civilian agencies with EINSTEIN 3A. The system 
currently protects 15 Federal civilian agencies with over 
930,000 Federal personnel, or approximately 45 percent of the 
civilian government, with at least one security countermeasure.
    We have added EINSTEIN 3A protections to over 20 percent of 
the Federal civilian government in the last 9 months alone. 
During this time, EINSTEIN 3A has blocked nearly 550,000 
attempts to access potentially malicious websites.
    EINSTEIN 3A is a signature-based system. It can only block 
attacks that it knows about. This is necessary, but not 
sufficient, for protecting the civilian government. We are also 
working on adding other technology to the EINSTEIN 3A platform 
that can block attacks that we have not previously seen.
    As we accelerate EINSTEIN deployment, we also recognize 
that security cannot be achieved through only one type of tool. 
EINSTEIN is not a silver bullet, and it will never be able to 
block every threat. For example, it must be complemented with 
tools to monitor the inside of agency networks.
    Our CDM, Continuous Diagnostics and Mitigation Program, 
helps address this challenge. We have purchased CDM Phase 1 
capabilities for 8 agencies covering over 50 percent of the 
Federal civilian government, and we expect to purchase CDM for 
97 percent of the Federal civilian government by the end of 
this fiscal year.
    Now, there's a caveat. The deadlines that I've just given 
you are when DHS will provide a capability. It takes a few 
additional months for each agency to fully implement both 
EINSTEIN and CDM once the services are available. Of course, 
agencies must supplement EINSTEIN and CDM with additional tools 
appropriate to the needs of the agency.
    I want to thank you again for the legislation Congress 
passed in December 2014. As you know, additional legislation is 
needed. This committee and the House have passed a bill 
authorizing EINSTEIN and establishing DHS as the portal for 
liability-protected information-sharing between the private 
sector and the Government. We need information sharing and 
EINSTEIN authorization legislation passed.
    I'd like to conclude by noting that Federal agencies are a 
rich target and will continue to experience frequent attempted 
intrusions. As our detection methods improve, we will detect 
more incidents, incidents that are already occurring, we just 
didn't know it yet.
    The recent breach at OPM is emblematic of this trend, as 
OPM was able to detect the intrusion by implementing best 
practices recommended by DHS. We are accelerating the 
deployment of the tools we have, and we are bringing cutting-
edge capabilities on-line. We are asking our partner agencies 
and Congress to take action and work with us to strengthen the 
cybersecurity of our Federal agencies.
    Thank you again for the opportunity to appear before you 
today. I look toward to any questions.
    [The prepared statement of Mr. Ozment follows:]
                   Prepared Statement of Andy Ozment
                              introduction
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
committee, thank you for the opportunity to appear before you today. 
Recent compromises clearly demonstrate the challenge facing the Federal 
Government in protecting our citizens' and employees' personal 
information against sophisticated, agile, and persistent threats. 
Addressing these threats is a shared responsibility. I will discuss the 
roles of the Department of Homeland Security (DHS) in protecting 
civilian Federal departments and agencies and in helping agencies 
better protect themselves.
      the role of the department of homeland security in federal 
                             cybersecurity
    The Federal Information Security Modernization Act of 2014 
specifies that Federal agencies are responsible for their own 
cybersecurity. In addition, DHS has the mission to provide a common 
baseline of security across the civilian government and help agencies 
manage their cyber risk. DHS, through its National Protection and 
Programs Directorate (NPPD), assists agencies by providing this 
baseline for the Federal Government through the EINSTEIN and Continuous 
Diagnostics and Mitigation (CDM) programs, by measuring and motivating 
agencies to implement best practices, by serving as a hub for 
information sharing, and by providing incident response assistance when 
agencies suffer a cyber intrusion. I will discuss each of these in 
turn. NPPD has two additional cybersecurity customers besides the 
Federal Government: Private-sector infrastructure owners and operators, 
and State, local, Tribal, and territorial governments. While several of 
the capabilities outlined below, such as information sharing and best 
practices, apply to all three customers, this statement focuses on 
NPPD's approach to Federal cybersecurity in the context of the recent 
compromise at OPM.
EINSTEIN
    EINSTEIN protects agencies' unclassified networks at the perimeter 
of each agency. Furthermore, EINSTEIN provides situational awareness 
across the Government, as threats detected in one agency are shared 
with all others so they can take appropriate protective action. The 
U.S. Government could not achieve such situational awareness through 
individual agency efforts alone.
    The first two versions of EINSTEIN--EINSTEIN 1 and 2--identify 
abnormal network traffic patterns and detect known malicious traffic. 
This capability is fully deployed and screening all Federal civilian 
traffic that is routed through a Trusted Internet Connection (a secure 
gateway between each agency's internal network and the internet). 
EINSTEIN 3 Accelerated (EINSTEIN 3A), which actively blocks known 
malicious traffic, is currently being deployed through the primary 
Internet Service Providers serving the Federal Government. EINSTEIN 1 
and 2 use only Unclassified information, while EINSTEIN 3A uses 
Classified information. Using Classified indicators allows EINSTEIN 3A 
to detect and block many of the most significant cybersecurity threats. 
We are working aggressively to ensure that all agencies are protected 
by EINSTEIN 3A, including by implementing alternative deployment 
options that address the inability of some Internet Service Providers 
to implement EINSTEIN 3A in a sufficiently timely manner.
    We are now accelerating our efforts and making significant progress 
in implementing EINSTEIN 3A across the Federal Government. The system 
now protects 15 Federal civilian departments and agencies and over 
930,000 Federal personnel with at least one of its two security 
``countermeasures.'' Thus, EINSTEIN 3A protects approximately 45% of 
the civilian government--a 20% increase over the past 9 months alone. 
During this time, EINSTEIN 3A has blocked nearly 550,000 attempts to 
access potentially malicious web sites via one of its countermeasures. 
Any one of these blocked attempts could have conceivably resulted in an 
incident of severe consequence.
    As we fully deploy EINSTEIN 3A, we are also mindful that to stay 
ahead of the adversary, we must go beyond the current approach that 
uses indicators of known threats. To that end, we are developing 
advanced malware and behavioral analysis capabilities that will 
automatically identify and separate suspicious traffic for further 
inspection, even if the precise indicator has not been seen before. We 
are examining best-in-class technologies from the private sector to 
evolve to this next stage of network defense. As I will discuss later, 
EINSTEIN played a key role in understanding the recent compromise at 
OPM.
Continuous Diagnostics and Mitigation (CDM)
    Security cannot be achieved through only one type of tool. That is 
why security professionals believe in defense-in-depth: Employing 
multiple tools to, in combination, manage the risks of cyber attacks. 
EINSTEIN is a perimeter system, but it will never be able to block 
every threat. For example, it must be complemented with systems and 
tools inside agency networks. Through the CDM program, DHS provides 
Federal civilian agencies with tools to monitor agencies' internal 
networks. CDM is divided into three phases:

  <bullet> CDM Phase 1 identifies vulnerabilities on computers and 
        software on agency networks.
  <bullet> CDM Phase 2 will monitor users on agencies' networks and 
        detect if they are engaging in unauthorized activity.
  <bullet> CDM Phase 3 will assess activity happening inside of 
        agencies' networks to identify anomalies and alert security 
        personnel.
    We have provided CDM Phase 1 capabilities to 8 agencies, covering 
over 50% of the Federal civilian government. We expect to purchase CDM 
for 97% of the Federal civilian government by the end of this fiscal 
year. CDM will provide an invaluable tool in helping agencies protect 
against cybersecurity compromises. Although NPPD provides both EINSTEIN 
3A and CDM capabilities to Federal civilian agencies, each agency must 
still take action to implement these systems. In some cases, it may 
take agencies some months to fully implement a given capability once it 
is made available by DHS.
    For example, a vignette from the current incident may be useful to 
illustrate how EINSTEIN and CDM jointly help protect Federal agencies:
  <bullet> As soon as OPM identified malicious activity on their 
        network, they shared this information with DHS. NPPD then 
        developed a signature for the particular threat, and used 
        EINSTEIN 2 to look back in time for other compromises across 
        the Federal civilian government. Through this process, we 
        identified a potential compromise at another location with OPM 
        data that would not have been identified and mitigated as 
        quickly without the EINSTEIN system. We then used the EINSTEIN 
        1 system to determine whether data exfiltration had occurred.
  <bullet> This same threat information is used by EINSTEIN 3A to block 
        potential threats from impacting Federal networks. Thus, DHS 
        used EINSTEIN 3A to ensure that this cyber threat could not 
        exploit other agencies protected by the system. As noted, DHS 
        is accelerating EINSTEIN 3A deployment across the Federal 
        Government. While it is challenging to estimate the potential 
        impact of a prevented event, each of these malicious DNS 
        requests or emails that were blocked by EINSTEIN 3A may 
        conceivably have led to a cybersecurity compromise of severe 
        consequence.
  <bullet> When implemented across the Federal Government, CDM will 
        help agencies identify and prioritize vulnerabilities within 
        their network. For example, CDM would have helped OPM identify 
        any vulnerabilities within its database of Federal personnel 
        information and mitigate those vulnerabilities before they 
        could be exploited by an adversary.
Measuring and Motivating Agencies to Adopt Best Practices
    Many cybersecurity incidents can be avoided by simple measures. 
Implementing best practices is the foundation of cybersecurity. DHS 
works closely with individual agencies and governance bodies such as 
the Federal Chief Information Officer (CIO) Council to motivate 
agencies to implement best practices and to measure their progress in 
reaching particular goals and outcomes. Examples of best practices 
include patching critical vulnerabilities, implementing workforce 
training and awareness programs, and using multi-factor authentication. 
Secretary Johnson recently issued a Binding Operational Directive, 
based upon authority provided by Congress in the Federal Information 
Security Modernization Act of 2014, which directed civilian agencies to 
promptly patch vulnerabilities on their internet-facing devices. These 
vulnerabilities are identified by recurring scans conducted by the DHS 
National Cybersecurity and Communications Integration Center (NCCIC). 
These vulnerabilities are accessible from the internet, and thus 
present a significant risk if not quickly addressed. Agencies have 
responded quickly in implementing Secretary Johnson's directive, as 
over half of the stale critical vulnerabilities that existed when the 
Directive was issued have been mitigated within the 20 days since its 
issuance.
    Under the authority provided by Congress in last year's FISMA 
legislation, DHS has a statutory role in developing, implementing, and 
evaluating operational cybersecurity guidance, in conjunction with the 
Office of Management and Budget. In this role, DHS leverages metrics, 
consultation, and strategic engagements with agency CIOs and Chief 
Information Security Officers (CISOs) to motivate agencies toward 
better cybersecurity. In fact, OPM was able to first identify the 
recent compromise of its network based upon technical recommendations 
provided by NPPD.
Information Sharing
    Information sharing is an essential aspect of NPPD's cybersecurity 
role. By sharing information quickly and widely, we help other agencies 
block cyber threats before damaging incidents occur. Equally 
importantly, the information we receive from other agencies and the 
private sector help us understand emerging risks and develop effective 
protective measures. Our NCCIC is the civilian government's hub for 
cybersecurity information sharing, incident response, and coordination. 
In fiscal year 2015, the NCCIC has disseminated over 6,000 alerts, 
warnings, and bulletins.
    To effectively combat sophisticated and agile adversaries, we must 
share information quickly enough to block threats before they can 
penetrate Federal networks. We now have a system to automate our 
sharing of cyber threat indicators, and we are working aggressively to 
build this capability across Government and to the private sector so we 
can share this information in near-real-time. One agency is already 
receiving cyber threat information via this automated system. We expect 
that multiple agencies and private-sector partners will begin sharing 
and receiving information through this system by the end of October, 
2015. As more agencies join us in automated information sharing, we 
will increase our adversaries' cost and reduce the prevalence of 
damaging incidents across the Federal Government and the private 
sector.
Incident Response
    Cybersecurity is about risk management, and we cannot eliminate all 
risk. Agencies that implement best practices and share information will 
increase the cost for adversaries and stop many threats. But 
ultimately, there exists no perfect cyber defense, and persistent 
adversaries will find ways to infiltrate networks in both Government 
and the private sector. When an incident does occur, the NCCIC offers 
on-site assistance to find the adversary, drive them out, and restore 
service. In fiscal year 2015, the NCCIC has already provided on-site 
incident response to 32 incidents--nearly double the total in all of 
fiscal year 2014. The NCCIC also coordinate responses to significant 
incidents to give senior leaders a clear understanding of the situation 
and give operators the information they need to respond effectively. 
Similar to the recent incident at OPM, providing on-site incident 
response assistance also allows the NCCIC to identify indicators of 
compromise that can then be shared with other agencies and applied to 
EINSTEIN for broad protection across the Federal Government.
                       cybersecurity legislation
    Last year, Congress acted in a bipartisan manner to pass critical 
cybersecurity legislation that enhanced the ability of the Department 
of Homeland Security to work with the private sector and other Federal 
civilian departments in each of their own cybersecurity activities, and 
enhanced the Department's cyber workforce authorities. As I noted, DHS 
is using the authority granted in one of those bills--the Federal 
Information Security Modernization Act of 2014--to direct Federal 
civilian Executive branch agencies to fix critical vulnerabilities on 
their Internet-facing devices.
    Additional legislation is needed. I previously highlighted 
EINSTEN's key role in identifying and mitigating an additional 
potential compromise during the OPM activity. The Department and 
administration have a long-standing request of Congress to remove 
obstacles to the EINSTEIN program's deployment across Federal civilian 
agency information systems by codifying the program's authorities and 
resolving lingering concerns among certain agencies. Some agencies have 
questioned how deployment of EINSTEIN under DHS authority relates to 
their existing statutory restrictions on the use and disclosure of 
agency data. DHS and the administration are seeking statutory changes 
to clarify this uncertainty and to ensure agencies understand that they 
can disclose their network traffic to DHS for narrowly-tailored 
purposes to protect agency networks, while making clear that privacy 
protections for the data will remain in place. I look forward to 
working with Congress to further clarify DHS's authority to rapidly and 
efficiently deploy this protective technology.
    In addition, carefully updating laws to facilitate cybersecurity 
information sharing within the private sector and between the private 
and Government sectors is also essential to improving the Nation's 
cybersecurity. While many companies currently share cybersecurity 
threat information under existing laws, there is a heightening need to 
increase the volume and speed of information shared without sacrificing 
the trust of the American people or the protection of privacy, 
confidentiality, civil rights, or civil liberties. It is essential to 
ensure that cyber threat information can be collated quickly in the 
NCCIC, analyzed, and shared quickly among trusted partners, including 
with law enforcement, so that network owners and operators can take 
necessary steps to block threats and avoid damage.
                               conclusion
    Federal agencies are a rich target and will continue to experience 
frequent attempted intrusions. This problem is not unique to the 
Government--it is shared across a global cybersecurity community. The 
key to good cybersecurity is awareness and constant vigilance at 
machine speed. As our detection methods continue to improve, more 
events will come to light. The recent breach at OPM is emblematic of 
this trend, as OPM was able to detect the intrusion by implementing 
cybersecurity best practices recommended by DHS. As network defenders 
are able to see and thwart more events, we will inevitably identify 
more malicious activity and thwart the adversary's attempts to access 
sensitive information and systems. We are facing a major challenge in 
protecting our most sensitive information against sophisticated, well-
resourced, and persistent adversaries. In response, we are accelerating 
deployment of the tools we have and are working to bring cutting-edge 
capabilities on-line. We are asking our partner agencies and Congress 
to take action and work with us to strengthen the cybersecurity of our 
Federal agencies.

    Mr. Ratcliffe. Thank you, Dr. Ozment.
    The Chair now recognizes Mr. Wilshusen for 5 minutes for 
his opening statement.

   STATEMENT OF GREGORY C. WILSHUSEN, DIRECTOR, INFORMATION 
       SECURITY ISSUES, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Wilshusen. Chairman Ratcliffe, Ranking Member Richmond, 
and Members of the subcommittee, thank you for the opportunity 
to testify at today's hearing on DHS's efforts to secure the 
.gov domain.
    As you know, the Federal Government faces an array of 
cyber-based threats to its computer networks and systems, as 
illustrated by the recent OPM data breaches which affected 
millions of Federal employees. Such incidents underscore the 
urgent need for effective implementation of information 
security programs at Federal agencies.
    Since 1997, we have designated Federal information security 
as a Government-wide high-risk area and, in 2003, expanded the 
area to include computerized systems supporting the Nation's 
critical infrastructure. We further expanded this area in 2015 
to include protecting the privacy of personally identifiable 
information.
    Today I will discuss several cybersecurity challenges 
facing Federal agencies and Government-wide initiatives, 
including those led by DHS aimed at improving agency 
cybersecurity.
    Before I begin, Mr. Chairman, if I may, I'd like to 
recognize several members of my team who were instrumental in 
developing my statement and some of the work underpinning it.
    With me today is Larry Crosland, who is an assistant 
director who led this work. Also, Brad Becker, Rosanna 
Guerrero, Lee McCracken, Kush Malhotra, Chris Businsky, and 
Scott Pettis also made significant contributions.
    Mr. Chairman, most Federal agencies face challenges 
securing their computer networks and systems. One such 
challenge is designing and implementing risk-based 
cybersecurity programs.
    Agencies continue to have shortcomings in assessing risks, 
developing and implementing security controls, and monitoring 
results. Nineteen of 24 agencies covered by the CFO Act 
reported that information security weaknesses were either a 
significant deficiency or material weakness for financial 
reporting purposes. In addition, IGs at 23 of these agencies 
cited information security as a major management challenge for 
their agency.
    Overseeing security of contractor-operated systems is 
another challenge. Agencies rely on contractors to perform a 
wide variety of IT services. However, five of six agencies we 
reviewed did not consistently assess or review assessments of 
their contractors' information security practices and controls, 
resulting in security lapses.
    Even with effective control, security incidents and data 
breaches can still occur. Agencies need to react swiftly and 
appropriately when they do. However, seven agencies we reviewed 
had not consistently implemented key operational practices for 
responding to data breaches involving personally identifiable 
information.
    GAO and agency IGs have made hundreds of recommendations to 
assist agencies in addressing these and other challenges. 
Implementing these recommendations will strengthen agencies' 
ability to protect their systems and information.
    DHS and OMB have also launched several Government-wide 
initiatives to enhance cybersecurity. One such initiative is 
requiring strong authentication of users through the use of 
personal identity verification, or PIV, cards.
    These cards provide a more secure method of verifying a 
user's identity than do passwords. However, OMB recently 
reported that only 41 percent of agency user accounts at 23 
civilian agencies required PIV cards for accessing agency 
systems.
    DHS' Continuous Diagnostics and Mitigation Initiative is 
intended to provide agencies with tools that identify and 
prioritize cyber risk on an on-going basis and enable 
cybersecurity personnel to mitigate the most significant 
programs or problems first. If effectively implemented, the 
initiative may assist agencies in resolving long-standing 
security weaknesses.
    The National Cybersecurity Protection System is intended to 
detect and prevent malicious network traffic from entering 
Federal civilian networks, among other things. GAO is presently 
reviewing the implementation of this system. Our preliminary 
observations indicate that the system's intrusion detection and 
prevention capabilities may be useful, but are also limited.
    While Government-wide initiatives hold promise for 
bolstering the Federal cybersecurity posture, no single 
technology or set of practices is sufficient to protect against 
all cyber threats. A multi-layered defense-in-depth strategy 
that includes well-trained personnel, effective and 
consistently applied processes, and appropriate technologies is 
needed to better manage these risks.
    This concludes my statement. I'd be happy to answer your 
questions.
    [The prepared statement of Mr. Wilshusen follows:]
               Prepared Statement of Gregory C. Wilshusen
                             June 24, 2015
    cybersecurity.--recent data breaches illustrate need for strong 
                    controls across federal agencies
                              gao-15-725t
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
subcommittee: Thank you for inviting me to testify at today's hearing 
on the Department of Homeland Security's (DHS) efforts to secure 
Federal information systems. As you know, the Federal Government faces 
an array of cyber-based threats to its systems and data, as illustrated 
by the recently-reported data breaches at the Office of Personnel 
Management (OPM), which affected millions of current and former Federal 
employees. Such incidents underscore the urgent need for effective 
implementation of information security controls at Federal agencies.
    Since 1997, we have designated Federal information security as a 
Government-wide high-risk area, and in 2003 expanded this area to 
include computerized systems supporting the Nation's critical 
infrastructure. Most recently, in the 2015 update to our high-risk 
list, we further expanded this area to include protecting the privacy 
of personally identifiable information (PII)\1\--that is, personal 
information that is collected, maintained, and shared by both Federal 
and non-Federal entities.\2\
---------------------------------------------------------------------------
    \1\ Personally identifiable information is information about an 
individual, including information that can be used to distinguish or 
trace an individual's identity, such as name, Social Security number, 
mother's maiden name, or biometric records, and any other personal 
information that is linked or linkable to an individual.
    \2\ See GAO, High-Risk Series: An Update, GAO-15-290 (Washington, 
DC: Feb. 11, 2015).
---------------------------------------------------------------------------
    My statement today will discuss: (1) Cybersecurity challenges that 
Federal agencies face in securing their systems and information and (2) 
Government-wide initiatives, including those led by DHS, aimed at 
improving agencies' cybersecurity. In preparing this statement, we 
relied on our previous work in these areas, as well as the preliminary 
observations from our on-going review of DHS's EINSTEIN initiative. We 
discussed these observations with DHS officials. The prior reports 
cited throughout this statement contain detailed discussions of the 
scope of the work and the methodology used to carry it out. All the 
work on which this statement is based was conducted or is being 
conducted in accordance with generally accepted Government auditing 
standards. Those standards require that we plan and perform audits to 
obtain sufficient, appropriate evidence to provide a reasonable basis 
for our findings and conclusions based on our audit objectives. We 
believe that the evidence obtained provides a reasonable basis for our 
findings and conclusions based on our audit objectives.
                               background
    As computer technology has advanced, both Government and private 
entities have become increasingly dependent on computerized information 
systems to carry out operations and to process, maintain, and report 
essential information. Public and private organizations rely on 
computer systems to transmit proprietary and other sensitive 
information, develop and maintain intellectual capital, conduct 
operations, process business transactions, transfer funds, and deliver 
services. In addition, the internet has grown increasingly important to 
American business and consumers, serving as a medium for hundreds of 
billions of dollars of commerce each year, and has developed into an 
extended information and communications infrastructure that supports 
vital services such as power distribution, health care, law 
enforcement, and National defense.
    Ineffective protection of these information systems and networks 
can result in a failure to deliver these vital services, and result in:
  <bullet> loss or theft of computer resources, assets, and funds;
  <bullet> inappropriate access to and disclosure, modification, or 
        destruction of sensitive information, such as National security 
        information, PII, and proprietary business information;
  <bullet> disruption of essential operations supporting critical 
        infrastructure, National defense, or emergency services;
  <bullet> undermining of agency missions due to embarrassing incidents 
        that erode the public's confidence in Government;
  <bullet> use of computer resources for unauthorized purposes or to 
        launch attacks on other systems;
  <bullet> damage to networks and equipment; and
  <bullet> high costs for remediation.
    Recognizing the importance of these issues, Congress enacted laws 
intended to improve the protection of Federal information and systems. 
These laws include the Federal Information Security Modernization Act 
of 2014 (FISMA),\3\ which, among other things, authorizes DHS to: (1) 
Assist the Office of Management and Budget (OMB) with overseeing and 
monitoring agencies' implementation of security requirements; (2) 
operate the Federal information security incident center; and (3) 
provide agencies with operational and technical assistance, such as 
that for continuously diagnosing and mitigating cyber threats and 
vulnerabilities. The act also reiterated the 2002 FISMA requirement for 
the head of each agency to provide information security protections 
commensurate with the risk and magnitude of the harm resulting from 
unauthorized access, use, disclosure, disruption, modification, or 
destruction of the agency's information or information systems. In 
addition, the act requires Federal agencies to develop, document, and 
implement an agency-wide information security program. The program is 
to provide security for the information and information systems that 
support the operations and assets of the agency, including those 
provided or managed by another agency, contractor, or other source.
---------------------------------------------------------------------------
    \3\ The Federal Information Security Modernization Act of 2014 
(Pub. L. No. 113-283, Dec. 18, 2014) largely superseded the very 
similar Federal Information Security Management Act of 2002 (Title III, 
Pub. L. No. 107-347, Dec. 17, 2002).
---------------------------------------------------------------------------
Cyber Threats to Federal Systems
    Risks to cyber-based assets can originate from unintentional or 
intentional threats. Unintentional threats can be caused by, among 
other things, natural disasters, defective computer or network 
equipment, and careless or poorly-trained employees. Intentional 
threats include both targeted and untargeted attacks from a variety of 
sources, including criminal groups, hackers, disgruntled employees, 
foreign nations engaged in espionage and information warfare, and 
terrorists.
    These adversaries vary in terms of their capabilities, willingness 
to act, and motives, which can include seeking monetary gain or a 
political, economic, or military advantage. For example, adversaries 
possessing sophisticated levels of expertise and significant resources 
to pursue their objectives--sometimes referred to as ``advanced 
persistent threats''--pose increasing risks. They make use of various 
techniques--or exploits--that may adversely affect Federal information, 
computers, software, networks, and operations.
    Since fiscal year 2006, the number of information security 
incidents affecting systems supporting the Federal Government has 
steadily increased each year: Rising from 5,503 in fiscal year 2006 to 
67,168 in fiscal year 2014, an increase of 1,121 percent (see fig. 1). 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Furthermore, the number of reported security incidents involving 
PII at Federal agencies has more than doubled in recent years--from 
10,481 incidents in fiscal year 2009 to 27,624 incidents in fiscal year 
2014. These incidents and others like them can adversely affect 
National security; damage public health and safety; and lead to 
inappropriate access to and disclosure, modification, or destruction of 
sensitive information. Recent examples highlight the impact of such 
incidents:
  <bullet> In June 2015, OPM reported that an intrusion into its 
        systems affected personnel records of about 4 million current 
        and former Federal employees. The director of OPM also stated 
        that a separate incident may have compromised OPM systems 
        related to background investigations, but its scope and impact 
        have not yet been determined.
  <bullet> In June 2015, the commissioner of the Internal Revenue 
        Service (IRS) testified that unauthorized third parties had 
        gained access to taxpayer information from its ``Get 
        Transcript'' application. According to IRS, criminals used 
        taxpayer-specific data acquired from non-IRS sources to gain 
        unauthorized access to information on approximately 100,000 tax 
        accounts. These data included Social Security information, 
        dates of birth, and street addresses.
  <bullet> In April 2015, the Department of Veterans Affairs (VA) 
        Office of Inspector General reported that two VA contractors 
        had improperly accessed the VA network from foreign countries 
        using personally-owned equipment.
  <bullet> In February 2015, the Director of National Intelligence 
        stated that unauthorized computer intrusions were detected in 
        2014 on OPM's networks and those of two of its contractors. The 
        two contractors were involved in processing sensitive PII 
        related to National security clearances for Federal employees.
  <bullet> In September 2014, a cyber-intrusion into the United States 
        Postal Service's information systems may have compromised PII 
        for more than 800,000 of its employees.
        federal agencies face on-going cybersecurity challenges
    Given the risks posed by cyber threats and the increasing number of 
incidents, it is crucial that Federal agencies take appropriate steps 
to secure their systems and information. We and agency inspectors 
general have identified challenges in protecting Federal information 
and systems, including those in the following key areas:
  <bullet> Designing and implementing risk-based cybersecurity programs 
        at Federal agencies..--Agencies continue to have shortcomings 
        in assessing risks, developing and implementing security 
        controls, and monitoring results. Specifically, for fiscal year 
        2014, 19 of the 24 Federal agencies covered by the Chief 
        Financial Officers (CFO) Act \4\ reported that information 
        security control deficiencies were either a material weakness 
        or a significant deficiency in internal controls over their 
        financial reporting.\5\ Moreover, inspectors general at 23 of 
        the 24 agencies cited information security as a major 
        management challenge for their agency.
---------------------------------------------------------------------------
    \4\ These are the Departments of Agriculture, Commerce, Defense, 
Education, Energy, Health and Human Services, Homeland Security, 
Housing and Urban Development, the Interior, Justice, Labor, State, 
Transportation, the Treasury, and Veterans Affairs; the Environmental 
Protection Agency; General Services Administration; National 
Aeronautics and Space Administration; National Science Foundation; 
Nuclear Regulatory Commission; Office of Personnel Management; Small 
Business Administration; Social Security Administration; and the U.S. 
Agency for International Development.
    \5\ A material weakness is a deficiency, or combination of 
deficiencies, that results in more than a remote likelihood that a 
material misstatement of the financial statements will not be prevented 
or detected. A significant deficiency is a control deficiency, or 
combination of control deficiencies, in internal control that is less 
severe than a material weakness, yet important enough to merit 
attention by those charged with governance. A control deficiency exists 
when the design or operation of a control does not allow management or 
employees, in the normal course of performing their assigned functions, 
to prevent or detect and correct misstatements on a timely basis.
---------------------------------------------------------------------------
    As we testified in April 2015, for fiscal year 2014, most of the 
        agencies had weaknesses in the five key security control 
        categories.\6\ These control categories are: (1) Limiting, 
        preventing, and detecting inappropriate access to computer 
        resources; (2) managing the configuration of software and 
        hardware; (3) segregating duties to ensure that a single 
        individual does not have control over all key aspects of a 
        computer-related operation; (4) planning for continuity of 
        operations in the event of a disaster or disruption; and (5) 
        implementing agency-wide security management programs that are 
        critical to identifying control deficiencies, resolving 
        problems, and managing risks on an on-going basis. (See fig. 
        2.)
---------------------------------------------------------------------------
    \6\ GAO, Cybersecurity: Actions Needed to Address Challenges Facing 
Federal Systems, GAO-15-573T (Washington, DC: Apr. 22, 2015).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Examples of these weaknesses include: (1) Granting users access 
        permissions that exceed the level required to perform their 
        legitimate job-related functions; (2) not ensuring that only 
        authorized users can access an agency's systems; (3) not using 
        encryption to protect sensitive data from being intercepted and 
        compromised; (4) not updating software with the current 
        versions and latest security patches to protect against known 
        vulnerabilities; and (5) not ensuring employees were trained 
        commensurate with their responsibilities. GAO and agency 
        inspectors general have made hundreds of recommendations to 
        agencies aimed at improving their implementation of these 
        information security controls.
  <bullet> Enhancing oversight of contractors providing IT services.--
        In August 2014, we reported that five of six agencies we 
        reviewed were inconsistent in overseeing assessments of 
        contractors' implementation of security controls.\7\ This was 
        partly because agencies had not documented IT security 
        procedures for effectively overseeing contractor performance. 
        In addition, according to OMB, 16 of 24 agency inspectors 
        general determined that their agency's program for managing 
        contractor systems lacked at least one required element. We 
        recommended that OMB, in conjunction with DHS, develop and 
        clarify guidance to agencies for annually reporting the number 
        of contractor-operated systems and that the reviewed agencies 
        establish and implement IT security oversight procedures for 
        such systems. OMB did not comment on our report, but the 
        agencies generally concurred with our recommendations.
---------------------------------------------------------------------------
    \7\ GAO, Information Security: Agencies Need to Improve Oversight 
of Contractor Controls, GAO-14-612 (Washington, DC: Aug. 8, 2014).
---------------------------------------------------------------------------
  <bullet> Improving security incident response activities.--In April 
        2014, we reported that the 24 agencies did not consistently 
        demonstrate that they had effectively responded to cyber 
        incidents.\8\ Specifically, we estimated that agencies had not 
        completely documented actions taken in response to detected 
        incidents reported in fiscal year 2012 in about 65 percent of 
        cases.\9\ In addition, the 6 agencies we reviewed had not fully 
        developed comprehensive policies, plans, and procedures to 
        guide their incident response activities. We recommended that 
        OMB address agency incident response practices Government-wide 
        and that the 6 agencies improve the effectiveness of their 
        cyber incident response programs. The agencies generally agreed 
        with these recommendations. We also made two recommendations to 
        DHS concerning Government-wide incident response practices. DHS 
        concurred with the recommendations and, to date, has 
        implemented one of them.
---------------------------------------------------------------------------
    \8\ GAO, Information Security: Agencies Need to Improve Cyber 
Incident Response Practices, GAO-14-354 (Washington, DC: Apr. 30, 
2014).
    \9\ This estimate was based on a statistical sample of cyber 
incidents reported in fiscal year 2012, with 95 percent confidence that 
the estimate falls between 58 and 72 percent.
---------------------------------------------------------------------------
  <bullet> Responding to breaches of PII.--In December 2013, we 
        reported that 8 Federal agencies had inconsistently implemented 
        policies and procedures for responding to data breaches 
        involving PII.\10\ In addition, OMB requirements for reporting 
        PII-related data breaches were not always feasible or 
        necessary. Thus, we concluded that agencies may not be 
        consistently taking actions to limit the risk to individuals 
        from PII-related data breaches and may be expending resources 
        to meet OMB reporting requirements that provide little value. 
        We recommended that OMB revise its guidance to agencies on 
        responding to a PII-related data breach and that the reviewed 
        agencies take specific actions to improve their response to 
        PII-related data breaches. OMB neither agreed nor disagreed 
        with our recommendation; four of the reviewed agencies agreed, 
        two partially agreed, and two neither agreed nor disagreed.
---------------------------------------------------------------------------
    \10\ GAO, Information Security: Agency Responses to Breaches of 
Personally Identifiable Information Need to Be More Consistent, GAO-14-
34 (Washington, DC: Dec. 9, 2013).
---------------------------------------------------------------------------
  <bullet> Implementing security programs at small agencies.--In June 
        2014, we reported that six small agencies (i.e., agencies with 
        6,000 or fewer employees) had not implemented or not fully 
        implemented their information security programs.\11\ For 
        example, key elements of their plans, policies, and procedures 
        were outdated, incomplete, or did not exist, and two of the 
        agencies had not developed an information security program with 
        the required elements. We recommended that OMB include a list 
        of agencies that did not report on the implementation of their 
        information security programs in its annual report to Congress 
        on compliance with the requirements of FISMA, and include 
        information on small agencies' programs. OMB generally 
        concurred with our recommendations. We also recommended that 
        DHS develop guidance and services targeted at small agencies. 
        DHS has implemented this recommendation.
---------------------------------------------------------------------------
    \11\ GAO, Information Security: Additional Oversight Needed to 
Improve Programs at Small Agencies, GAO-14-344 (Washington, DC: June 
25, 2014).
---------------------------------------------------------------------------
    Until Federal agencies take actions to address these challenges-- 
including implementing the hundreds of recommendations we and 
inspectors general have made--Federal systems and information will be 
at an increased risk of compromise from cyber-based attacks and other 
threats.
 government-wide cybersecurity initiatives present potential benefits 
                             and challenges
    In addition to the efforts of individual agencies, DHS and OMB have 
several initiatives under way to enhance cybersecurity across the 
Federal Government. While these initiatives all have potential 
benefits, they also have limitations.
    Personal Identity Verification.--In August 2004, Homeland Security 
Presidential Directive 12 ordered the establishment of a mandatory, 
Government-wide standard for secure and reliable forms of 
identification for Federal Government employees and contractor 
personnel who access Government-controlled facilities and information 
systems. Subsequently, the National Institute of Standards and 
Technology (NIST) defined requirements for such personal identity 
verification (PIV) credentials based on ``smart cards''--plastic cards 
with integrated circuit chips to store and process data--and OMB 
directed Federal agencies to issue and use PIV credentials to control 
access to Federal facilities and systems.
    In September 2011, we reported that OMB and the 8 agencies in our 
review had made mixed progress for using PIV credentials for 
controlling access to Federal facilities and information systems.\12\ 
We attributed this mixed progress to a number of obstacles, including 
logistical problems in issuing PIV credentials to all agency personnel 
and agencies not making this effort a priority. We made several 
recommendations to the 8 agencies and to OMB to more fully implement 
PIV card capabilities. Although 2 agencies did not comment, 7 agencies 
agreed with our recommendations or discussed actions they were taking 
to address them. For example, we made 4 recommendations to DHS, who 
concurred and has taken action to implement them. In February 2015, OMB 
reported that, as of the end of fiscal year 2014, only 41 percent of 
agency user accounts at the 23 civilian CFO Act agencies required PIV 
cards for accessing agency systems.\13\
---------------------------------------------------------------------------
    \12\ GAO, Personal ID Verification: Agencies Should Set a Higher 
Priority on Using the Capabilities of Standardized Identification 
Cards, GAO-11-751 (Washington, DC: Sept. 20, 2011).
    \13\ OMB, Annual Report to Congress: Federal Information Security 
Management Act (Washington, DC: Feb. 27, 2015).
---------------------------------------------------------------------------
    Continuous Diagnostics and Mitigation (CDM).--According to DHS, 
this program is intended to provide Federal departments and agencies 
with capabilities and tools that identify cybersecurity risks on an on-
going basis, prioritize these risks based on potential impacts, and 
enable cybersecurity personnel to mitigate the most significant 
problems first. These tools include sensors that perform automated 
searches for known cyber vulnerabilities, the results of which feed 
into a dashboard that alerts network managers. These alerts can be 
prioritized, enabling agencies to allocate resources based on risk. 
DHS, in partnership with the General Services Administration, has 
established a Government-wide contract that is intended to allow 
Federal agencies (as well as State, local, and Tribal governmental 
agencies) to acquire CDM tools at discounted rates.
    In July 2011, we reported on the Department of State's (State) 
implementation of its continuous monitoring program, referred to as 
iPost.\14\ We determined that State's implementation of iPost had 
improved visibility over information security at the Department and 
helped IT administrators identify, monitor, and mitigate information 
security weaknesses. However, we also noted limitations and challenges 
with State's approach, including ensuring that its risk-scoring program 
identified relevant risks and that iPost data were timely, complete, 
and accurate. We made several recommendations to improve the 
implementation of the iPost program, and State partially agreed.
---------------------------------------------------------------------------
    \14\ GAO, Information Security: State Has Taken Steps to Implement 
a Continuous Monitoring Application, but Key Challenges Remain, GAO-11-
149 (Washington, DC: July 8, 2011).
---------------------------------------------------------------------------
    National Cybersecurity Protection System (NCPS).--The National 
Cybersecurity Protection System, operationally known as ``EINSTEIN,'' 
is a suite of capabilities intended to detect and prevent malicious 
network traffic from entering and exiting Federal civilian Government 
networks. The EINSTEIN capabilities of NCPS are described in table 
1.\15\
---------------------------------------------------------------------------
    \15\ In addition to the EINSTEIN capabilities listed in table 1, 
NCPS also includes a set of capabilities related to analytics and 
information sharing.

TABLE 1.--NATIONAL CYBERSECURITY PROTECTION SYSTEM EINSTEIN CAPABILITIES
------------------------------------------------------------------------
                                      Capability
        Operational Name               Intended           Description
------------------------------------------------------------------------
EINSTEIN 1......................  Network Flow......  Provides an
                                                       automated process
                                                       for collecting,
                                                       correlating, and
                                                       analyzing
                                                       agencies'
                                                       computer network
                                                       traffic
                                                       information from
                                                       sensors installed
                                                       at their internet
                                                       connections.*
EINSTEIN 2......................  Intrusion           Monitors Federal
                                   Detection.          agency internet
                                                       connections for
                                                       specific
                                                       predefined
                                                       signatures of
                                                       known malicious
                                                       activity and
                                                       alerts US-CERT
                                                       when specific
                                                       network activity
                                                       matching the
                                                       predetermined
                                                       signatures is
                                                       detected.**
EINSTEIN 3 Accelerated..........  Intrusion           Automatically
                                   Prevention.         blocks malicious
                                                       traffic from
                                                       entering or
                                                       leaving Federal
                                                       civilian
                                                       Executive branch
                                                       agency networks.
                                                       This capability
                                                       is managed by
                                                       internet service
                                                       providers, who
                                                       administer
                                                       intrusion
                                                       prevention and
                                                       threat-based
                                                       decision-making
                                                       using DHS-
                                                       developed
                                                       indicators of
                                                       malicious cyber
                                                       activity to
                                                       develop
                                                       signatures.***
------------------------------------------------------------------------
Source.--GAO analysis of DHS documentation and prior GAO reports. GAO-15-
  725T
* The network traffic information includes source and destination
  Internet Protocol addresses used in the communication, source and
  destination ports, the time the communication occurred, and the
  protocol used to communicate.
** Signatures are recognizable, distinguishing patterns associated with
  cyber attacks such as a binary string associated with a computer virus
  or a particular set of keystrokes used to gain unauthorized access to
  a system.
*** An indicator is defined by DHS as human-readable cyber data used to
  identify some form of malicious cyber activity. These data may be
  related to Internet Protocol addresses, domains, e-mail headers,
  files, and character strings. Indicators can be either Classified or
  Unclassified.

    In March 2010, we reported that while agencies that participated in 
EINSTEIN 1 improved their identification of incidents and mitigation of 
attacks, DHS lacked performance measures to understand if the 
initiative was meeting its objectives.\16\ We made four recommendations 
regarding the management of the EINSTEIN program, and DHS has since 
taken action to address them.
---------------------------------------------------------------------------
    \16\ GAO, Information Security: Concerted Effort Needed to 
Consolidate and Secure Internet Connections at Federal Agencies, GAO-
10-237 (Washington, DC: Mar. 12, 2010).
---------------------------------------------------------------------------
    Currently, we are reviewing NCPS, as mandated by Congress. The 
objectives of our review are to determine the extent to which: (1) NCPS 
meets stated objectives, (2) DHS has designed requirements for future 
stages of the system, and (3) Federal agencies have adopted the system. 
Our final report is expected to be released later this year, and our 
preliminary observations include the following:
  <bullet> DHS appears to have developed and deployed aspects of the 
        intrusion detection and intrusion prevention capabilities, but 
        potential weaknesses may limit their ability to detect and 
        prevent computer intrusions. For example, NCPS detects 
        signature anomalies using only one of three detection 
        methodologies identified by NIST (signature-based, anomaly-
        based, and stateful protocol analysis). Further, the system has 
        the ability to prevent intrusions, but is currently only able 
        to proactively mitigate threats across a limited subset of 
        network traffic (i.e., Domain Name System traffic and e-mail).
  <bullet> DHS has identified a set of NCPS capabilities that are 
        planned to be implemented in fiscal year 2016, but it does not 
        appear to have developed formalized requirements for 
        capabilities planned through fiscal year 2018.
  <bullet> The NCPS intrusion detection capability appears to have been 
        implemented at 23 CFO Act agencies.\17\ The intrusion 
        prevention capability appears to have limited deployment, at 
        portions of only 5 of these agencies. Deployment may have been 
        hampered by various implementation and policy challenges.
---------------------------------------------------------------------------
    \17\ The Department of Defense is not required to implement 
EINSTEIN.
---------------------------------------------------------------------------
    In conclusion, the danger posed by the wide array of cyber threats 
facing the Nation is heightened by weaknesses in the Federal 
Government's approach to protecting its systems and information. While 
recent Government-wide initiatives hold promise for bolstering the 
Federal cybersecurity posture, it is important to note that no single 
technology or set of practices is sufficient to protect against all 
these threats. A ``defense-in-depth'' strategy is required that 
includes well-trained personnel, effective and consistently-applied 
processes, and appropriately implemented technologies. While agencies 
have elements of such a strategy in place, more needs to be done to 
fully implement it and to address existing weaknesses. In particular, 
implementing GAO and inspector general recommendations will strengthen 
agencies' ability to protect their systems and information, reducing 
the risk of a potentially devastating cyber attack.
    Chairman Ratcliffe, Ranking Member Richmond, and Members of the 
subcommittee, this concludes my statement. I would be happy to answer 
any questions you may have.

    Mr. Ratcliffe. Thank you, Mr. Wilshusen.
    I now recognize myself for 5 minutes for questions. As I 
mentioned in my opening statement, the OPM servers that were 
breached contained National security clearance information and 
other highly sensitive personal information.
    When asked why that information was not encrypted, OPM 
administrators have testified that the servers in question were 
obsolete and would have crashed had that been attempted.
    Dr. Ozment, if that is the case, it begs the question: Why 
on earth would OPM be storing such sensitive information on 
obsolete systems that cannot be encrypted?
    Mr. Ozment. Mr. Chairman, I will defer to OPM to speak to 
the specifics of their decision making, but I can talk to you 
about some of the tradeoffs that CIOs, in general, face with 
legacy systems.
    As I mentioned in my opening remarks, looking across the 
public and private sector, broadly I would say that, for the 
last 20 years, both Government and industry have underinvested 
in cybersecurity. So, frankly, there is a backlog of 
cybersecurity work that needs to be done. That requires 
significant investment.
    If an organization also has legacy systems that require 
investment to upgrade to more modern systems, the bill and 
resources required to do that can be extraordinary.
    So all CIOs are faced with extreme demands for a capability 
that they have to balance with the need to manage risks 
appropriately and, of course, in a world of limited resources.
    Speaking specifically to encryption, I would note that, in 
the case of this particular intrusion at OPM, the adversary 
compromised what is known as an administrative credential.
    Think about this as a computer network being an apartment 
building where each user has a key to their own apartment, but 
there's a superintendent who has keys to all the apartments in 
the building. The adversary compromised, essentially copied, 
the superintendent's key ring and, therefore, had legitimate 
access to the information on the network.
    Mr. Ratcliffe. Let me ask you about that, Dr. Ozment, 
because I have two questions that relate to that.
    I read a summary of your testimony last week, and it 
appeared that it was your opinion that, even had this sensitive 
information been encrypted, it wouldn't have made a difference 
in the breach for that reason that you just mentioned.
    But isn't it true that, had there been multi-factor 
authentication in addition to encryption, that this breach 
could have been prevented?
    Mr. Ozment. As both Mr. Wilshusen and I mentioned in our 
opening remarks, you need defense-in-depth. You need multiple 
layers of security. Both encryption and multi-factor 
authentication are important layers of security.
    You cannot confidently say that you can prevent any given 
intrusion, but the more layers of security you have, the more 
difficult you make it for an adversary.
    I do believe that multi-factor authentication is an 
important security technique, and that is one reason why OMB, 
for example, is highlighting that in their 30-day sprint.
    Mr. Ratcliffe. Right. But I am asking for your opinion.
    Do you think, had there been multi-factor authentication at 
OPM, that this particular breach could have been prevented?
    Mr. Ozment. I don't know that I can say the breach could 
have been prevented. I think some of the damage could have been 
mitigated. In fact, some of the damage was mitigated when OPM 
rolled out multi-factor authentication in January 2015.
    Mr. Ratcliffe. Okay. So let me ask you about this 
authorized credentials that you just mentioned.
    So, as I understand that, the user, if you will, on its 
face was authorized to be there. That being the case, what 
cybersecurity measures or best practices are intended to 
specifically identify anomalies in the behavior of purported 
authorized users?
    In other words, some authorized users might be in places or 
using devices that they typically wouldn't be using. Isn't that 
right?
    Mr. Ozment. That's right. So you can employ what is 
generally known as insider threat detection technology.
    Mr. Ratcliffe. Were those employed at OPM?
    Mr. Ozment. I do not know for sure whether those were 
employed at OPM or not.
    Mr. Ratcliffe. Okay.
    Mr. Ozment. But insider threat technology will stop either 
a legitimate user who is behaving illegitimately or a 
legitimate user whose accounts have been compromised. It is not 
perfect, and you often have false positives that you have to 
investigate. But, again, it is a useful layer of security to 
add.
    Mr. Ratcliffe. All right. Very quickly, Mr. Wilshusen, the 
Chairman referenced the enactment of FISMA back in December 
2014.
    Do you think that the Department of Homeland Security has 
the necessary authorities right now to be successful in 
carrying out its mission of protecting Government networks?
    Mr. Wilshusen. I think the provisions provided in the 
modernized FISMA of 2014 greatly strengthened DHS' authorities 
to perform those functions, which previously they had certain 
responsibilities under a memorandum delegated to it by the 
Office of Management and Budget. But given the statutory 
authorities to DHS, certainly strengthens its hand in 
performing those functions.
    Mr. Ratcliffe. Terrific. I think Dr. Ozment commented on 
the information-sharing bill that passed the House that the 
Chairman referenced earlier. I would like your opinion.
    Do you agree with Dr. Ozment that that bill could help 
block future threats?
    Mr. Wilshusen. I would say that sharing of cyber threat and 
incident information is a critical element to assuring that 
agencies in the Department have appropriate threat intelligence 
to help protect against those threats.
    Mr. Ratcliffe. Thank you. My time is expired for this round 
at least.
    I would like to recognize the Ranking Member for 5 minutes 
for his questions.
    Mr. Richmond. Thank you, Mr. Chairman.
    Dr. Ozment, Mr. Wilshusen, let me just ask a question. It 
is something I have always toyed with.
    I will start with Dr. Ozment. How much do you all spend 
yearly on cybersecurity? Do you have an idea?
    Mr. Ozment. My organization within the Department of 
Homeland Security has an annual budget for fiscal year 2016 of 
approximately $900 million. Some of that budget goes to 
emergency communications, essentially ensuring that the phone 
lines work in the case of a crisis, which, depending on your 
definition of cybersecurity, could be included or not included.
    Mr. Wilshusen. Government-wide OPM has reported that, for 
fiscal year 2014, 24 agencies covered by the Chief Financial 
Officers Act spent about $13 billion on cybersecurity 
activities out of an IT budget of around $80 billion.
    So the vast majority of that, though, relates to the 
Department of Defense. Pulling that information--their budgets 
out, the numbers are significantly less.
    Mr. Richmond. I guess I was asking those questions because, 
as we continuously focus on Government spending and spending 
alone without looking at return on investment, without looking 
at threats, and we continue to hear the mantra of ``We are 
going to do less with more''--I guess my general question 
becomes--and I think of it in terms of defending President Bush 
and the fact that colleagues on my side of the aisle like to 
say he squandered a surplus and, also, defending President 
Obama in terms of looking at the National debt.
    We have expenses we didn't have before. Before 9/11, you 
didn't have TSA. Now, with the proliferation of the internet 
and, as the Chairman just mentioned, the criminals and the 
nation-states that are attempting to do bad things on the 
internet, we didn't have those costs before.
    So I am just trying to get a sense of--do you think that 
this is an area where we can do less with more or do you think 
this is an area where you think we are going to have to 
continue to invest funds and resources to keep the .gov, .com, 
.org, all of those domains, safe?
    Mr. Ozment. From my perspective, sir, I think we are going 
to have to continue to invest for two reasons. One is that we 
are catching up on many years of underinvestment. The second 
one is this is risk management. It is not risk elimination.
    So the adversaries are not going to go away in cyber space. 
As we improve our defenses, they will improve their offense. So 
we will have to continue to invest to maintain pace with an 
adversary who is also investing.
    Mr. Wilshusen. I would agree that it will require effective 
management in addition to resources to accomplish this.
    One of the areas that we typically find on our audits of 
agencies' systems is that many of the vulnerabilities and 
defects in their security controls can be implemented without 
necessarily the use or expenditure of additional resources.
    It's basically applying patches in a timely manner, 
assuring that agencies limit the privileges that they grant to 
their users to the least privilege that's necessary for them to 
perform their duties, as well as continually testing and 
evaluating their systems and then taking corrective actions to 
mitigate known vulnerabilities.
    In certain instances, particularly now, agencies will 
likely need to invest in improving their intrusion detection 
capabilities to identify and mitigate and reduce the intrusions 
and impact of intrusions that are likely to occur.
    Mr. Richmond. My final question would be back to Dr. 
Ozment. That is: How can your office accelerate the 
Department's cyber strategy that confronts Federal targets, but 
still maintain its focus on National critical infrastructure 
needs against aggressive, persistent, malicious actors that 
continue to target our Nation's critical infrastructure, for 
example, for me, our ports? Do you need additional resources to 
do that? If so, what do you think the ticket price is?
    Mr. Ozment. Thank you.
    You will find that our budget requests for cybersecurity in 
the Department have been growing steadily over the years, and I 
would not be surprised for them to continue to grow.
    You put your finger on an important challenge, which is 
that we have a responsibility both to the private sector, to 
the Federal civilian government, and, also, to our State, 
local, Tribal, and territorial government colleagues.
    The good news is, as we improve our Federal cybersecurity, 
we learn things that will also help us support our private 
sector and State, local, Tribal, and territorial colleagues. 
This is where cyber information sharing becomes so important.
    When we use the EINSTEIN or CDM programs and detect a 
threat and learn about a new threat, with the information-
sharing legislation, we'll be able to share that information 
outward.
    At the same time, when an adversary attacks a private-
sector network and they share that information with the 
Government, if we're able to receive it, we can then use that 
information to protect Government networks.
    So there's absolutely a synergy between our work in the 
private sector and our work in the Government. The crux of that 
synergy is taking information that one entity learns and 
sharing it with the Government or vice versa.
    Mr. Richmond. With that, Mr. Chairman, I yield back.
    Mr. Ratcliffe. The gentleman yields back.
    The Chairman now recognizes and welcomes to the 
subcommittee the former district attorney from New York and 
gentleman from New York, Mr. Donovan, for 5 minutes for his 
questions.
    Mr. Donovan. Thank you very much, Mr. Chairman.
    Doctor, I was just wondering if you could help me 
understand this a little bit. There has been a lot of criticism 
in the reportings about the breach that EINSTEIN didn't work.
    My understanding is that it did what it was built to do and 
it was part of a multi-layered approach to securing the data 
and part of this defense-in-depth theory.
    Did EINSTEIN actually do what it was created to do?
    Mr. Ozment. Yes, sir, it did. I can go into more detail if 
you'd like.
    Mr. Donovan. Please.
    Mr. Ozment. So, in this instance, first, OPM and the 
Department of Interior are not covered by EINSTEIN 3 yet, which 
is the system that blocks intrusions. We are working with the 
Department of Interior to roll that out aggressively. It just 
became available to them this winter.
    It is not yet available to the OPM because we have not yet 
completed the work with that internet service provider who 
services OPM.
    Now, what happened in this incident is OPM rolled out 
security capabilities in accordance with a mitigation plan we 
provided them in May 2014. As they rolled out those 
capabilities, they caught an intruder on their networks and 
they shared the cyber threat indicators with us.
    We took those cyber threat indicators and put them into the 
EINSTEIN system. With EINSTEIN 2, we looked back in time and 
saw that the Department of Interior had also suffered an 
intrusion, as evidenced by these threat indicators.
    We then used EINSTEIN 1 to help us pinpoint what was 
exfiltrated and from which computers at the Department of 
Interior. In this case, it turned out to be OPM data that was 
being stored at a data center at the Department of Interior. 
That is the 4.2 million personnel records that you read about 
in the media.
    So the trick with EINSTEIN is, as it currently is built, it 
has to know about a threat before it can detect or block it. 
This is what it was designed to do. It is a necessary tool. It 
is not a sufficient tool.
    So even as we finish rolling out EINSTEIN across the 
breadth of the Government, we are also focused on the depth of 
capability that it offers. One layer of depth that we need to 
provide is a layer that will help us detect and block 
intrusions that we have not previously seen.
    That gets riskier because you have false positives when you 
are doing that. That means that we will block legitimate 
traffic. That could be a problem, but that is a risk we will 
have to take.
    Mr. Donovan. Doctor, I am not well-versed in computers. In 
fact, I still have a VCR that blinks 12.
    Just so you could clarify for me, it seems that EINSTEIN 
was created to block known intruders rather than allowing 
friendly traffic to come through and block everyone else who is 
not identified as friendly.
    I understand from your analogy about the superintendent 
that even that wouldn't have worked in this case because the 
intruder was looked upon as a friendly user.
    But is it a better system to just allow friendly users 
instead of just blocking people who we know because we don't 
know who all the intruders are?
    Mr. Ozment. Representative, that is an accurate assessment 
of the situation.
    EINSTEIN goes around the entire Federal civilian 
government. At that distance from an individual agency, it's 
not possible to identify ``This is good traffic only, and we'll 
only let in the known good traffic.''
    Because departments and agencies conduct such wildly 
different business, it's not possible to identify ``This is 
what is appropriate and acceptable and only let this happen.'' 
Even within a single department in an agency that is probably 
not possible.
    There may be parts within the department or agency, smaller 
systems or organizations, that have a limited remit that would 
be able to say ``This is all that we do. And, therefore, we 
only accept this type of traffic or communications from these 
computers'' or something of that nature.
    Mr. Donovan. Thank you, Doctor.
    Chairman, I yield back my time.
    Mr. Ratcliffe. The gentleman yields back.
    The Chair now recognizes the gentleman from Rhode Island, 
Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank our witnesses here today.
    I want to point out one thing before I go into my 
questions. We talk about the rollout of EINSTEIN 3 and where we 
are today. It is unacceptable that we are at this for the 
better part of a decade now and still such a small percentage 
of the .gov network has even basic levels of EINSTEIN 3 on it 
yet.
    We have a long way to go. I understand that we are making 
progress and rolling out EINSTEIN 3 to protect the .gov 
network, but it is laughable that it has taken this long to get 
to this point.
    Part of the reason, Mr. Chairman, is the fact that no one 
is in charge despite the fact that we have a cyber 
coordinator--and I applaud the work that Michael Daniel does 
with limited tools, really, at his disposal because he lacks 
policy and budgetary authority to compel compliance of 
departments and agencies to do more in cyber. Neither does the 
Secretary of Homeland Security.
    I know that in the last Congress we gave additional 
authorities through FISMA reform, but still even the Secretary 
of Homeland Security does not have the ability to reach across 
Government and tell an agency like OPM they are not doing 
enough on cyber, which is why we are here today and is why the 
OPM breach happened, because OPM did not take cybersecurity 
seriously enough.
    It wasn't even like they were coming to Congress and asking 
for more resources. It was only until fiscal year 2016 that 
they asked for more money for cyber. It wasn't like they were 
coming here asking for money and they were told no. They didn't 
even ask. They weren't taking cyber seriously.
    So I hope that, at some point, we will get somebody in 
charge that does have both policy and budgetary authority who 
can compel compliance of departments and agencies.
    But, with that, Dr. Ozment, I noticed that you were at the 
OGR hearing earlier this morning, and I have a number of 
questions about the OPM breach.
    So, to begin with--and I know the Chairman touched on this 
briefly on the encryption side--you said that encrypting data 
stolen may not have helped in this case. Now, you are not 
suggesting that we shouldn't encrypt, I take it. I want to make 
sure that you have the opportunity to be clear.
    What is your view on encryption? Because I hope you would 
still agree that encrypting PII is still a best practice that 
agencies should be following. Is that correct?
    Mr. Ozment. Encryption is absolutely a best practice that 
agencies should follow, although I would highlight that you 
always have a limited cybersecurity budget. Let's say its $100. 
There's always $200 of layers of security you could buy.
    So you look at a particular system and look at what's the 
best value. You select the layers that provide the best value 
based on the needs of that system.
    Mr. Langevin. I would make the point that I think 
encrypting is vitally important and, if someone were to think 
that we shouldn't encrypt, it would be like saying, ``Well, 
they came in through the window. So we shouldn't lock the front 
door and the back door of the house just because they came 
through the window.'' We want to make sure that we follow the 
industry's best practices on the encryption.
    Dr. Ozment, did the Federal Network Resilience division 
work with OPM prior to the discovery of the March 2014 breach?
    Mr. Ozment. So Federal Network Resilience is part of my 
organization that manages, in part, the annual FISMA reporting.
    So prior to the March 2014 breach, we collect data that 
agencies report on their cybersecurity, and we use that data 
with OMB to construct the annual FISMA report and, also, to 
hold cyber stat sessions, sessions where we bring agencies to 
the White House and essentially go through their cybersecurity 
posture and work with them to address any challenges.
    Mr. Langevin. Did you bring in OPM?
    Mr. Ozment. I will have to come back to you on the date of 
our last cyber stat with OPM. We have had one, but I don't 
recall the date of the cyber stat surrounding the March 2014.
    Mr. Langevin. I would appreciate it if you would get that 
to the committee for the record.
    It is my understanding that the Federal Network Resilience 
division did not work with OPM and that OPM never made the 
request.
    The Federal Network Resilience division is precisely the 
kind of entity that a department or agency whose private 
mission isn't necessarily going to be cybersecurity could go to 
the Federal Network Resilience division and ask for the 
expertise and do a vulnerability assessment and say, ``How can 
we get better?'' It is my understanding that OPM never did 
that.
    Dr. Ozment, just to clarify for my sake, does DHS view the 
OPM breach of personnel data as part of the same incident as 
the breach of security clearance information? The same threat 
acted in both cases? Correct? The same threat acted in both 
cases. Is that correct?
    Mr. Ozment. I'm going to have to defer to the intelligence 
community any questions about which actor in specific and even, 
to a degree, the specifics about the relationships between 
incidents.
    What I will absolutely say is there are clearly 
relationships between the Government incidents, including the 
two that we are talking about today, and other recent incidents 
targeting the PII, the personally identifiable information, of 
Government employees.
    Mr. Langevin. Thank you, Mr. Chair. I know my time is 
expired. I hope we are going to do a second round. I have a 
bunch of other questions. I yield back.
    Mr. Ratcliffe. The gentleman yields back.
    The Chair now recognizes my colleague from the great State 
of Texas, Ms. Jackson Lee.
    Mr. Jackson Lee. Mr. Chairman, thank you for your kindness 
and that of the Ranking Member, first of all, for this very 
important hearing, and my dear colleague, Mr. Clawson, for 
yielding not his time, but his place in order, to allow me just 
a moment.
    I have a meeting with the Secretary--and it is starting as 
we speak--on some matters. But this committee I have always 
said has been the front-line committee.
    Mr. Langevin is correct that we have been talking about the 
issues of cybersecurity and protecting data and documents for a 
very long time. You know, I know there is a myriad of issues 
that we are discussing, but it disturbs me that, in fact--and 
we heard this generally--OPM used old software that could not 
be encrypted. We face this enormous debacle that has many 
fingerprints. We know that there are many elements to it.
    I know that I served as the Chairwoman of the 
Transportation Security and Infrastructure Protection Committee 
before the Cybersecurity Committee was created, and we talked 
about the percentage of infrastructure in the cyber world in 
the private sector--85 percent--and that we had a small 
percentage thereof.
    So I guess for the record I want to express the recognition 
of our public servants who work very hard, but my absolute 
consternation and frustration that we are where we are today, 
task forces that are being discerned and established not 
necessarily under this administration.
    Because, if it was 2015 under another administration--
unfortunately, hard heads made a very difficult spot to sit 
down on. I am baffled why the Government finds itself in this 
place.
    My colleague indicated resources, that that was one of the 
issues, but focusing one's mind--we talked about getting the 
brightest and the best to be able to address this question. We 
predicted it was coming. Not that we were geniuses, but the 
writing was on the wall. Everyone was turning to technology. 
Everyone was using technology.
    I am enormously saddened for the millions of Federal 
workers in this recent incident that are now subjected to 
personal violations. But from the White House to the vast array 
of Federal departments, agencies, we are not the standard-
bearer for the tightest cybersecurity that we can have, having 
at hand, I think, a bipartisan commitment that this is a 
serious issue. Many legislative initiatives have been 
introduced.
    So let me just ask. I indicated to Mr. Clawson I would not 
be long. I have a number of questions. My staff, Mr. Chairman, 
is going to frame them in a letter.
    Let me indicate that some very thoughtful questions have 
been put forward, but I do want to heighten this level of 
frustration. I could listen to the Government Accountability, 
but let me just ask the two witnesses, being mindful of the 
time.
    You have heard my level of frustration. We are here today. 
Will we be here next week? Will we be here next month? Will we 
be here next year? This hacking, breaching, is not going to 
stop.
    So I just want to ask this question: Why is the Government 
at this place at this time? Why are we here?
    Mr. Wilshusen. I think there are probably several reasons, 
one of which is the fact that many of the computer systems that 
Federal agencies use--and it's not dissimilar to what's 
happening out in the private sector--is based on defective 
software.
    Much of the software that agencies use have a number of 
vulnerabilities in it that aren't fixed before they're bought, 
sold, purchased, and deployed. So, over time, as these 
vulnerabilities come to light, agencies as well as any users of 
that software need to take steps to mitigate and correct those 
vulnerabilities.
    Mr. Jackson Lee. I am not going to cut you off. You gave me 
a powerful answer. As I said, I am going to follow up with 
questions coming to you because I want to get to Mr. Wilshusen 
for that very same question.
    So is the answer now ``stop, move out all your software, 
and begin again''? Yes or no.
    Mr. Wilshusen. No. The answer is no. You can't stop and 
move out all your software.
    Mr. Jackson Lee. All right. I wanted to hear that.
    So it is piecemeal.
    Mr. Wilshusen. I think what one has to do is, as 
corrections and patches are identified to correct 
vulnerabilities in software, that they be applied promptly to 
the----
    Mr. Jackson Lee. Which we have had some problems with doing 
that. Thank you, sir.
    Mr. Jackson Lee. Mr. Wilshusen, why are we here where we 
are today?
    Mr. Ozment. So I would actually echo the points that Mr. 
Wilshusen made. I would flag that it's, in part, the complexity 
of software----
    Mr. Jackson Lee. Sorry. Mr. Wilshusen was over here, and 
you are over here. Sorry.
    Mr. Ozment. No problem.
    I would flag that it's the complexity of software, which 
means that, even as we build it, it's insecure. Even if we 
could build individual pieces of software securely, we, as a 
Nation, don't know how to compose those into larger systems 
that are themselves secure. This is a place where both the 
Government and the private sector are.
    We're in a world right now where we rely upon information 
technology. We're not able to manage securely the complexity of 
that technology, but neither can we back away from that 
technology. So we are in a world where we will have to manage 
the risks, but we will not be able to prevent intrusions.
    Mr. Jackson Lee. Well, the first thing is to know that we 
need to manage the risks in the Federal Government, even though 
you have the larger--I think you are in the private sector--the 
larger component.
    You are in Homeland Security, but you do realize the 
private sector has the largest amount. So we need to manage it. 
That is what you are suggesting that we need to do.
    We need to engage with the private sector, and we need to 
confront the horror that it is and be diligent constantly on 
our managing, on trying to get our hands around the issue.
    With that, Mr. Chairman, I am going to yield back. Forgive 
me for putting Government people in private hats. But I know 
that they have probably weaved in and out of the private sector 
at some point.
    But I see that this is going to be a looming issue, and I 
think this committee is right and the full committee is right 
for us to be enormously penetrating on solutions of getting the 
Government where it needs to be and getting the private sector 
in its cooperative mode to help the Nation be where it needs to 
be on this issue of cybersecurity.
    With that, Mr. Chairman, thank you.
    Mr. Clawson, thank you.
    I yield back.
    Mr. Ratcliffe. I thank the gentlelady. The gentlelady 
yields back.
    I now would like to recognize my friend and colleague from 
Florida, Mr. Clawson, for his questions.
    Mr. Clawson. Thank you for coming today.
    I am going to lay out a couple of observations, two or 
three maybe, and then you all can respond and tell me if you 
agree with me or where you think I am wrong.
    My first observation is, if one of my nieces and nephews 
came to me and said they were going to take a job at the 
Federal Government, I would say, ``Don't do it. Your 
information is not secure. It is probably a lot less secure 
than most places you could go to work.''
    Therefore, I am not sure how we attract great talent to do 
the things that we talk about doing in this committee not just 
for the security, but just to run the Government.
    I am not sure that putting employees at this kind of risk 
will attract ``A'' players to work in the Government. Just all 
of my instincts tell me there is going to be residual impact 
from these kind of breaches that impact how well the Government 
does across the board. That is my first observation.
    My second observation is, if I was sitting there running 
that enterprise, I would say to myself, ``Delete, delete, and 
more delete.'' My guess is that there is a lot of legacy data 
that aren't mission-critical right now, right now, particularly 
employees that have come and gone, records that are years old.
    I know you are going to tell me you can't. But all of my 
own managerial experience would say to delete the hell out of 
this so that, even though that might make our job more 
difficult in the future, it will make the hacker's job 
impossible. He can't hack what doesn't exist.
    My third observation would be, from a managerial 
perspective, to decentralize. Even if you roll it up on the 
internet in summary format later, decentralize. Decentralize 
everywhere you can.
    I understand that everybody wants an ERP on a centralized 
basis, but do that at a summary level and keep the data 
decentralized so that the hacker's job is much more complicated 
and you don't have a mother lode of data that he can get into.
    Now, I know you are going to take issue with those things. 
But if this was my board of directors and you all came in with 
this problem to me, those would be my first three reactions. If 
we ignore those outcomes and those possible solutions, it seems 
to me that we are living in yesterday's world.
    Now, I know you are going to tell me why what I say is 
impracticable, but I still want to hear from you.
    Mr. Wilshusen. I guess I'll take first crack versus your 
first observation on whether or not an individual should be 
hired or try to seek work with the Federal Government versus 
private sector.
    First, I would just say that the scourge of cyber 
malfeasance is not unique to the Federal Government. The same 
security vulnerabilities, the same types of attacks, the same 
types of data leakage and theft, occurs in private sector as 
well as the Federal Government. I think many Federal employees 
look beyond just that element to work for the Federal 
Government. It's more, perhaps, out of a civic duty and 
responsibility.
    Mr. Clawson. But you would agree--excuse me for 
interrupting to reclaim my time--you would agree that a Chinese 
hacker would probably rather get into the central government 
than a shock absorber maker or a wheel maker or a basic 
industry parts maker.
    Mr. Wilshusen. It depends on their motives.
    Mr. Clawson. When you make that equivalency, I am just 
having a hard time with that. You know, having protected my own 
network, I kind of have to call you on that. That doesn't feel 
like the same level of being a target.
    Mr. Wilshusen. It depends on what the motives of the hacker 
are, whether it's economic, monetary gain, or seeking a 
political or military advantage.
    If I'm a competitor and I'm seeking to gain information 
about a private company and what their products might be, I 
might be interested in hacking a private company's system. I 
might very well be in tune to trying to hack into Federal 
Government because----
    Mr. Clawson. Right. I have never had a personnel system 
hacked. I have had my product designs hacked. I have had my 
process technology hacked. I never had my personnel records 
hacked. It doesn't help my competitor.
    Mr. Wilshusen. As you mention, it's not just personnel 
records. It's other proprietary information, intellectual 
property, that might be the target of a hacker.
    Regarding the deleting data, of course, in the Federal 
Government, we do have records management requirements where we 
have to retain and archive certain data for a period of time.
    But I agree. After those time limits have expired, sure, 
get rid of it. To the extent we're able to, deleting 
information that's no longer necessary in accordance with 
Federal requirements should be done on a regular basis.
    Mr. Clawson. Well, if Congress can help with that at all, I 
would really like to be involved. In our company, we kept 
things a year unless we absolutely--you can't hack what was 
there 3 years ago because it is gone. That would eliminate a 
lot of risk, I think.
    I am sorry I am going on here, Doctor. You can also take 
issue with me.
    Mr. Ozment. I agree with Mr. Wilshusen. So I won't belabor 
the first two points.
    I'll add to the final point that there is a constant 
tension between centralization and decentralization in IT and, 
also, between homogeneity and heterogeneity in the sense of do 
you have a few systems of the same type or systems of very 
different types.
    It really depends on what you're trying to accomplish in 
the broader environment. So I don't think there's a right 
answer there. I think we should absolutely, however, consider 
that question when we design our networks.
    Mr. Clawson. My final follow-up. I spent a lot of years 
trying to centralize, as you say, to get the same kind of data 
all across the world.
    I found out just by rolling it up on the internet and 
leaving it decentralized it was just a lot cheaper. I didn't 
have all this management problem. It ended up being safer 
because I didn't have a lot of hackers in the Czech Republic.
    I yield back. Thank you.
    Mr. Ratcliffe. The gentleman yields back.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Perry, for his questions.
    Mr. Perry. Thank you, Mr. Chairman.
    I know it is a little unexpected. Sorry to be late to the 
game here.
    I am thinking about like the data services hub and the law 
that we have in place now in particular where you are required 
by law to be involved in the Government and then, by 
transposition, your data is then within the Government purview 
and then we don't necessarily have the best systems, maybe, 
that we could or should and how we also, as a Government, treat 
private entities that have been hacked and we penalize them for 
having not done enough soon enough or notified appropriately or 
what have you.
    I don't know how we have the moral high ground, as the 
Federal Government in this, you know, and we are not 
necessarily talking about the particular OPM breach, but 
because these things happen on a--at least the hacks happen on 
a regular basis. Right? We know that there are those who have 
been hacked and those who don't know it yet. Right? That is 
kind of how things go.
    So DHS, I think, has done everything within their current 
power. Right? They have advised. They have urged other 
agencies, ``This is the gold standard. This is where you need 
to be.'' But they still have no authority to force the 
agencies, like OPM or anybody else.
    They can tell them where they think they should be based on 
what DHS knows. ``This is why we have the Department of 
Homeland Security, among other reasons, is to determine threats 
that we have and solutions sets'' and so on and so forth. So 
they can advise, but they have no authority.
    So, in a broad sense, my question to you would be: Should 
DHS have the authority regarding other agencies to impose--we 
are talking about individual citizen's data which, in this 
particular instance, not necessarily OPM, but the data services 
hub associated with the ACA.
    You are mandated by Federal law to have your data, 
everything about you, be in that repository. If that is the 
case, should it be DHS? Should they have the authority? If not, 
who? If not anybody, then what is the solution set to make sure 
that agencies are on the cutting edge of safeguarding America's 
data?
    Mr. Wilshusen. Well, with regard to the first question, in 
terms of does DHS have the authority to compel agencies to take 
certain actions, the Federal Information Security Modernization 
Act of 2014 gave DHS statutory authorities to perform 
additional activities to help assist Federal agencies in 
improving their information security.
    One of those tools that's available to the Department is 
what is known as a binding operational directive. This is 
guidance and actually direction to the agency that the agency 
is required to implement. These directives are, I believe, 
prepared and developed in collaboration with OMB and others. 
But they do have a tool at least in their tool kit to help 
direct agencies to take corrective actions.
    Mr. Perry. They can help, they can assist, but they can't 
compel, or they can compel?
    Mr. Wilshusen. I believe those directives may be 
compulsory. But I will defer to Dr. Ozment.
    Mr. Langevin. Will the gentleman yield?
    So what is the consequence if they fail to comply?
    Mr. Ozment. I think, Mr. Langevin, Mr. Perry represents--
you get to the crux of the matter, which is we have the formal 
authority to compel. We do not have a stick to enforce that 
compulsory order.
    That being said, I don't know that it's possible for one 
department to be given that sort of compulsory ability with 
some sort of budgetary authority over another department, the 
way our overarching system is structured. So in the sense of 
our ability to issue compulsory orders, I think we do have that 
existing authority.
    I would highlight the two areas where we absolutely are 
lacking in necessary authorities right now are authorizing 
legislation for the EINSTEIN program, which this committee 
sponsored and passed and the House has passed, and, also, the 
information-sharing legislation, again, which this committee 
sponsored and the House has passed.
    Mr. Perry. So you think that we have at least some form, in 
the remaining time, of oversight to where we can urge and maybe 
even compel, but there is no--you can compel all you want, but 
if there is no consequence to inaction, there is nothing to 
compel you.
    Your assertion would be, as usual, not that--this isn't 
meant to be personal. How can the Government penalize itself? 
Because you are taking from one pocket--out of one pocket and 
putting it another pocket, if it is financial or what have you.
    But I think that smart folks like you and people on this 
committee need to find a way to compel, if that is the right 
solution set--you know, our individual citizen's data is at 
risk here and, if we have that authority, we have a 
responsibility to safeguard it. They are mandated to provide 
that information, mandated to, and then it is at risk. That is 
unacceptable, and I am sure you know it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Ratcliffe. The gentleman yields back.
    Like Congressman Langevin, I was hoping that we might get 
to a second round of questions. But based on the updated vote 
schedule and out of respect to our witness on the second panel, 
we will move now to that second panel.
    So I thank the witnesses for their testimony and the 
Members for their questions at this first part of our hearing 
today.
    As was indicated, some of the Members have additional 
questions for the witnesses. We will ask you to respond to 
those in writing. The committee will now take a very short 
break so that the clerks can prepare the second panel.
    [Recess.]
    Mr. Ratcliffe. I would like to welcome our second 
distinguished panel today, Dr. Daniel Gerstein, with The RAND 
Corporation and former acting under secretary for the Science 
and Technology Directorate at the Department of Homeland 
Security.
    Welcome, Dr. Gerstein. At this time I will ask you to stand 
and raise your right hand so that I can swear you in to 
testify.
    [Witness sworn.]
    Mr. Ratcliffe. You may be seated.
    Dr. Gerstein's full statement will appear in the record.
    The Chair recognizes you now for 5 minutes for an opening 
statement.

     STATEMENT OF DANIEL M. GERSTEIN, THE RAND CORPORATION

    Mr. Gerstein. Well, thank you. Good afternoon.
    Chairman Ratcliffe, Ranking Member Richmond, and 
distinguished Members of the subcommittee, I thank you for the 
opportunity to testify today on the strategies for defending 
U.S. Government networks in cyberspace.
    Recent events occurring on U.S. Government networks over 
the past several years, punctuated most recently by the OPM 
breach, demonstrate clearly the need for developing and 
maintaining capabilities to assess the status of the 
Government's internal networks and protect them from intrusion.
    These events have also underscored concerns about the 
growing sophistication of the threat and the risk posed to 
personal data, Government networks, and even mission assurance.
    Two foundational elements of the Department of Homeland 
Security's cybersecurity program are EINSTEIN, also called 
EINSTEIN 3A, and Continuous Diagnostics and Mitigation, or CDM. 
The two systems are designed to work in tandem, with EINSTEIN 
focusing on keeping threats out of Federal networks and CDM 
identifying them when the threats are inside the Government 
networks. The phased rollouts of both CDM and EINSTEIN are 
expected to continue over the next several years.
    Now, despite recent progress, critics have argued that both 
programs have taken too long to implement, and I have to say 
there is some validity to these concerns. However, CDM is now 
at a point in development and deployment where additional 
resources could accelerate the program. EINSTEIN, on the other 
hand, still requires additional development and coordination 
with internet service providers, which will be contracted to 
implement the program.
    In my judgment, both programs are necessary, but not 
sufficient for ensuring the security of Government networks. 
Therefore, even with EINSTEIN and CDM, more will be needed to 
defend Government networks in cyber space.
    For the remainder of my remarks, I would like to provide a 
more strategic look at this issue. Now, the internet is a 
complex system of systems, requiring a comprehensive approach 
to ensuring security across the vast Government network. Any 
single approach or program will be insufficient to ensure 
security in cyber space. As such, defense-in-depth strategies 
will be essential for securing Government networks.
    Now, when considering the development of a comprehensive 
cybersecurity approach, one must examine how new policies and 
processes, improvements to the internet architecture, hardware 
and software hardening, and personnel training and education 
must be combined into a system that will provide security, 
privacy, and resiliency.
    Inherent in efforts to secure the Federal cyberspace is the 
critical need for a National cybersecurity strategy. Such a 
document would include articulation of concepts for governance 
of the .gov domain in addition to cyber doctrine for 
deterrence, denial, attribution, response, and resilience. 
Today no such doctrine exists.
    It is my belief that the U.S. Government is at a crossroads 
concerning cybersecurity. The goal to date has been to balance 
two competing demands: Availability of data and security of the 
enterprise.
    As recent breaches have demonstrated over the past several 
years and with the OPM breach as an exclamation point, it is 
time to consider developing secure enclaves to protect key 
Government information, data, and networks.
    The technology exists today to re-architect the Government 
internet systems, and several agencies within the National 
security community have implemented such re-engineering with 
good results.
    Implementing these approaches to modernize and improve the 
security architectures will require resources and focused 
attention, both of which Congress and the Executive branch can 
provide.
    Appropriate funding for research, development, and 
acquisition programs remains another foundational element in 
the critical race to secure Federal Government networks. 
Government must partner with the cyber industries to ensure the 
pipeline of critical solutions continues to be developed.
    Finally, workforce issues both for cyber professionals that 
manage the Government networks and for the broader Government 
workforce that utilizes the network must be considered as a top 
priority.
    In the Government's cyber space, the security of the 
overall network is directly linked to the security of each of 
the nodes, to include the individuals operating each terminal 
device.
    I appreciate the opportunity to discuss recommendations to 
improve cybersecurity in our Government networks and, thereby, 
the homeland security of our Nation, and I look forward to your 
questions. Thank you.
    [The prepared statement of Mr. Gerstein follows:]
              Prepared Statement of Daniel M. Gerstein \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a non-
profit research organization providing objective analysis and effective 
solutions that address the challenges facing the public and private 
sectors around the world. RAND's publications do not necessarily 
reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
  Strategies for Defending U.S. Government Networks in Cyberspace \2\
---------------------------------------------------------------------------
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT436.html.
---------------------------------------------------------------------------
                             June 24, 2015
                              introduction
    Good morning Chairman Ratcliffe, Ranking Member Richmond, and 
distinguished Members of the subcommittee. I thank you for the 
opportunity to testify today on the Department of Homeland Security's 
(DHS's) Federal cybersecurity efforts. Specifically, I will discuss 
overarching cyber concerns, the Continuous Diagnostics and Mitigation 
(CDM) program, and other strategies for defending networks in cyber 
space.
    The CDM program is an important foundation for the security of 
Government networks. The concept was designed to provide a set of tools 
for enabling network administrators to know the state of their 
respective networks, inform on current threats, and allow system 
personnel to identify and mitigate issues at network speed. However, it 
is worth noting that CDM is not intended to be a stand-alone system, 
but rather one part of an overarching system-of-systems approach.
    EINSTEIN, which provides perimeter security for U.S. Government 
networks, is a complementary system to CDM. EINSTEIN functions by 
installing sensors at web access points and employs signatures to 
identify cyber attacks. Of note, both CDM and EINSTEIN are in early 
stages of deployment.
    Recent breaches occurring on U.S. Government networks over the past 
several years demonstrate clearly the need for developing and 
maintaining capabilities to assess the status of the Government's 
internal networks and protect them from intrusion. These events have 
also underscored concerns about the growing sophistication of the 
threat and the risk to personal data, Government networks, and even 
mission assurance.
overarching cyber issues and the continuous diagnostics and mitigation 
                      (cdm) and einstein programs
    Several key points undergird my comments about the CDM and EINSTEIN 
programs. These points concern the nature of the cyber threat, the 
demonstrated ability to sense and respond to threats, the importance of 
the programs, and, finally, the need to employ CDM in concert with 
others' cybersecurity strategies.
The cyber threat continues to grow and evolve
    The range, pace, persistence, and intensity of cyber threats to 
U.S. Government networks continues to grow. Even before this most 
recent breach of Government data from the Office of Personnel 
Management (OPM), ample evidence was available to indicate that our 
networks have been and likely continue to be penetrated. The goals of 
these attacks vary and include mapping Government networks, building 
databases on personnel, and intellectual property theft. The 
perpetrators include both state actors--in particular, China and 
Russia--and non-state actors.
    The cyber adversary is determined and technically competent and has 
demonstrated significant agility in attacking Government networks. 
Additionally, the cyber adversary has a low cost of entry, allowing for 
large numbers of potential threat actors. Coupling the growing number 
of hackers with the potential for high payoffs for successful attacks 
provides indications that the current pace of attacks is unlikely to 
change unless the perceived cost-benefit dynamics are also changed.
    Concerning the recent OPM database hack, the private data of over 4 
million people were compromised, with up to 18 million personnel whose 
records were exposed to the hackers. Speculation is that the goal 
behind the attack is to build a database of Federal employees, perhaps 
even to use the stolen personal information to impersonate Government 
workers or for future ``insider'' attacks. Experts speculate that the 
goal behind the attack could be to reveal who has security clearances 
and at what level, so that the Chinese may be able to identify, expose, 
and even blackmail U.S. Government officials around the world.\3\
---------------------------------------------------------------------------
    \3\ See Andy Medici, ``Massive OPM Data Breach Went Undetected for 
Months,'' Federal Times, June 5, 2015, and OPM, ``Information About 
Recent Cybersecurity Incidents,'' web page, updated June 18, 2015 
(http://www.opm.gov/news/latest-news/announcements/).
---------------------------------------------------------------------------
    Several years ago, U.S. Cyber Command (CYBERCOM) estimated that 
there were 250,000 probes or attacks every hour, or over 6 million per 
day, against U.S. Government networks.\4\ Today, an estimated 3 billion 
people use the internet, and another 4.9 billion devices are 
connected--a phenomenon known as the Internet of Things (IoT). 
Estimates are that by 2020, the number of IoT connections will be in 
excess of 25 billion devices.\5\ This expansion implies that more 
Government internet users, data, and systems will be placed at risk 
from a rapidly expanding internet footprint.
---------------------------------------------------------------------------
    \4\ Jim Garamone, ``Cybercom Chief Details Cyberspace Defense,'' 
DoD News, September 23, 2010.
    \5\ Gartner, ``Gartner Says 4.9 Billion Connected `Things' Will Be 
in Use in 2015,'' press release, Barcelona, Spain, November 11, 2014 
(http://www.gartner.com/newsroom/id/2905717).
---------------------------------------------------------------------------
    The loss of Government intellectual property (IP) is another 
significant cause for concern. Russia and China have active programs to 
penetrate U.S. Government networks for the purpose of gaining IP. China 
uses these intrusions to fill gaps in its own research programs, map 
future targets, gather intelligence on U.S. strategies and plans, 
enable future military operations, shorten research and development 
(R&D) time lines for military technologies, and identify 
vulnerabilities in U.S. systems and develop countermeasures.\6\ 
Estimates are that the loss of IP has exceeded well over $1 trillion 
including the loss of plans and technical details for the F-22 and F-35 
aircraft.\7\
---------------------------------------------------------------------------
    \6\ Larry M. Wortzel, Cyber Espionage and the Theft of U.S. 
Intellectual Property and Technology, Testimony Before the House of 
Representatives Committee on Energy and Commerce, Subcommittee on 
Oversight and Investigations, Washington, DC, July 9, 2013.
    \7\ Ellen Nakashima and Andrea Peterson, ``Report: Cybercrime and 
Espionage Costs $445 Billion Annually,'' Washington Post, June 9, 2014.
---------------------------------------------------------------------------
Major concerns about our ability to sense threats in real time and 
        respond rapidly
    The OPM data breach provides ample evidence that the Government's 
ability to sense threats in real time has not been adequate. Reports 
indicate that the OPM breach first occurred in December 2014, but was 
not discovered until April 2015 or publically acknowledged until June 
4, 2015.
    Also noteworthy when considering the OPM breach is that the 
intrusion was detected in April only after OPM's cybersecurity 
detection and monitoring tools had been upgraded. Therefore, any 
Government organization that has not already upgraded its detection and 
monitoring tools is likely to be unaware of any similar intrusions that 
are on-going or that previously occurred.
    Given the large number of attacks on Government networks that 
CYBERCOM estimates occur on a daily basis, one can conclude that there 
is a high likelihood of additional successful malicious attacks that 
have been conducted or are on-going and that have not been detected.
Continuous Diagnostic Monitoring (CDM) and EINSTEIN as key components 
        of our defensive cyber capacity for .gov users
    The two foundational programs of DHS's cybersecurity program are 
EINSTEIN (also called EINSTEIN 3A) and CDM. These two systems are 
designed to work in tandem, with EINSTEIN focusing on keeping threats 
out of Federal networks and CDM identifying them when they are inside 
Government networks.
    EINSTEIN provides a perimeter around Federal (or .gov) users, as 
well as select users in the .com space that have responsibility for 
critical infrastructure. EINSTEIN functions by installing sensors at 
web access points and employs signatures to identify cyber attacks.
    CDM, on the other hand, is designed to provide an embedded system 
of sensors on internal Government networks. These sensors provide real-
time capacity to sense anomalous behavior and provide reports to 
administrators through a scalable dashboard. It is composed of 
commercial-off-the-shelf equipment coupled with a customized dashboard 
that can be scaled for administrators at each level.
    CDM operates by providing:

``Federal departments and agencies with capabilities and tools that 
identify cybersecurity risks on an on-going basis, prioritize these 
risks based upon potential impacts, and enable cybersecurity personnel 
to mitigate the most significant problems first. Congress established 
the CDM program to provide adequate, risk-based, and cost-effective 
cybersecurity and more efficiently allocate cybersecurity 
resources.''\8\
---------------------------------------------------------------------------
    \8\ U.S. Department of Homeland Security, ``Continuous Diagnostics 
and Mitigation (CDM),'' web page, updated June 16, 2015 (http://
www.dhs.gov/cdm).

    CDM will be fully implemented in three phases, allowing for 15 
diagnostic capabilities. The first phase focuses on endpoint integrity, 
which is the functionality that examines all endpoints attempting to 
attach to the network and prohibits unsafe or noncompliant endpoints 
from gaining access. Specifically, endpoint integrity includes 
management of hardware and software assets, configuration management, 
and vulnerability management, which are foundational capabilities to 
protect systems and data. Phases 2 and 3 are continuing to be further 
defined to include Least Privilege and Infrastructure Integrity, and 
Boundary Protection and Event Management, respectively.\9\ In the end-
state, CDM is expected to cover over 60 Federal agencies.
---------------------------------------------------------------------------
    \9\ U.S. Department of Homeland Security, ``Implementation of 
Continuous Diagnostics and Mitigation (CDM),'' web page, updated June 
16, 2015 (http://www.dhs.gov/cdm-implementation).
---------------------------------------------------------------------------
    DHS, partnering with the General Services Administration (GSA), 
established a Blanket Purchase Agreement (BPA) for CDM that allows 
Government departments and agencies at the Federal, State, local, 
Tribal, and territorial levels to contract for continuous diagnostic 
monitoring. The BPA has a total ceiling of $6 billion.
    The phased roll-outs of both CDM and EINSTEIN are expected to 
continue over the next several years. Despite recent progress, critics 
have argued that both programs have taken too long to implement, and 
there is some validity to the concerns. However, CDM is now at a point 
in development and deployment where additional resources could 
accelerate the program. EINSTEIN, on the other hand, still requires 
additional early-stage development and coordination with the internet 
service providers that would be contracted to support the program.
Lack of defensive capacity is placing the Nation at risk and we should 
        expect additional intrusions and hacking to occur
    The skill of the adversaries, low cost of entry, relative ease of 
conducting attacks and the potential for high payoffs suggests that 
cyber attacks against Government networks are likely to remain a 
significant threat.
    Programs such as EINSTEIN and CDM are necessary but not sufficient 
to change the cost-benefit calculus or provide sufficient defensive 
capacity to keep cyber attacks from penetrating U.S. Government 
networks.
    Recent legislative actions are also necessary but not sufficient to 
ensure protection of Government networks. These include: (1) The 
National Cybersecurity Protection Act of 2014, which provides explicit 
authority for DHS to provide assistance to the private sector in 
identifying vulnerabilities and restoring their networks following an 
attack, and establishes in law the National Cybersecurity and 
Communications Integration Center (NCCIC) as a Federal civilian 
interface with the private sector; and (2) the Federal Information 
Security Modernization Act of 2014, which provides DHS authority to 
administer the implementation of Federal information security policies, 
develop and oversee implementation of binding cybersecurity directives, 
provide technical assistance to other agencies through the U.S. 
Computer Emergency Response Team (US-CERT), and deploy cybersecurity 
technology to other agencies upon their request.
    A third piece of legislation that is still being debated is the 
Cybersecurity Information Sharing Act of 2015. This legislation would 
require the sharing of information between the Government and industry 
concerning threats and other cyber information. While the specifics are 
still being developed, the general concept of greater sharing of 
information on cyber incidents between industry and the Government 
would be welcomed. However, even with such new legislation, recent 
cybersecurity trends are unlikely to be reversed without a more 
comprehensive program.
Even with EINSTEIN and CDM, more will be needed to defend Government 
        networks in cyber space--developing doctrine for deterrence, 
        denial, attribution, and response will be imperative. It may 
        also be time to reevaluate the U.S. Government information 
        architecture.
    The internet is a complex system-of-systems requiring a 
comprehensive approach to ensuring security across the vast Government 
network. Any single approach or program will be insufficient to ensure 
security in cyber space. As such, a defense-in-depth strategy will be 
essential for securing Government networks.
    In considering the development of a comprehensive cybersecurity 
approach, one must examine how new policies and processes, improvements 
to the internet architecture, hardware and software hardening, and 
personnel training and education must be combined into a system that 
will provide security, privacy, and resiliency.
    Inherent in efforts to secure the Federal cyber space is the 
development of a National Cybersecurity Strategy. Such a document would 
include articulation of concepts for governance of the .gov domain, in 
addition to cyber doctrine for deterrence, denial, attribution, 
response, and resilience.
    In my judgment, the U.S. Government is at a crossroads concerning 
cybersecurity. The goal to date has been to balance two competing 
demands: Availability of data and security of the enterprise. As recent 
breaches have demonstrated over the past several years--with the OPM 
breach as an exclamation point--it is time to develop secure enclaves 
to protect key Government information, data, and networks.
    The technology exists today to re-architect Government internet 
systems, and several agencies within the National security community 
have implemented such a reengineering with good results.
    Implementing these existing approaches to modernize and improve 
security architectures will take resources and focused attention--both 
of which Congress and the Executive branch can provide. We must start 
thinking of security as one of the top imperatives and systematically 
evaluate and change the U.S. Government's information architectures, 
along with applying programs such as CDM and EINSTEIN, if we are going 
to be better able to prevent, detect, and respond to these sorts of 
attacks.
    Appropriate funding for research, development, and acquisition 
programs remains another foundational element in this critical race to 
secure Federal Government networks. Government must partner with the 
cyber industries to ensure that the pipeline of critical solutions 
continues to be developed. At the same time, critical infrastructure 
industries such as transportation and energy must be beneficiaries of 
this cyber research, development, and acquisition.
    Workforce issues, both for the cyber professionals that manage the 
Government networks and for the broader Government workforce that 
utilizes the network, must be considered as a top priority.
    In the Government cyber space, the security of the overall network 
is directly linked to the security of each node, including the 
individuals operating the terminal devices. Training and education must 
be fully embedded throughout the workforce.
                              conclusions
    Recent cyber attacks demonstrate a disconcerting trajectory. 
Attackers are evolving their strategies and are becoming more 
emboldened. With little by way of deterrence, hackers--including state 
and non-state actors--are continuing to find opportunities to penetrate 
U.S. Government networks.
    These networks have demonstrated significant weaknesses that have 
been exploited resulting in loss of a large amount personal 
identifiable information, intellectual property, acquisition 
information, and sensitive security information.
    CDM and Einstein must be considered as one part of a layered 
defense strategy, but they cannot be the only tools employed. No one 
technology or solution can be utilized in isolation. Employing a 
systems approach to cybersecurity will be essential.
    Thank you, and I look forward to your questions.

    Mr. Ratcliffe. Thank you, Dr. Gerstein.
    I now recognize myself for 5 minutes for questions.
    So, Dr. Gerstein, you were in the room today and had a 
chance to listen to the testimony of our first panel. So I want 
to start there.
    Obviously, we spent some time in this hearing and much of 
last week talking about the OPM breach. As a former DHS officer 
now on the outside looking in, I would like to get your 
perspective on that and specifically whether or not you have an 
opinion to the question that I was asking earlier about whether 
or not there is any legitimate excuse for why encryption and 
multi-factor identification shouldn't have been deployed at 
OPM.
    Mr. Gerstein. Thank you, Mr. Chairman.
    I absolutely believe that, in fact, OPM had been slow to 
make necessary enhancements to its cyber network. The list of 
deficiencies that they are trying remediate and have been 
trying to remediate over the past, say, 9 months or so has been 
quite long.
    It begins with not even having a common understanding of 
what systems were part of their network. So they had not had a 
mapped network to be able to understand what was on their 
entire OPM network. So that is problematic.
    The multi-factor authentication is absolutely key. They 
were not in charge of their configuration because they had not 
had necessarily a professional IT force until 2013, when they 
actually did get an IT staff. So you have those sorts of 
systemic problems that are now being addressed.
    I clearly think that Dr. Ozment's comment about we are 
fighting a catch-up battle is right to the point, that we have 
underinvested in cybersecurity strategies.
    At the same time, interestingly, we have, in a sense, 
overinvested in information-sharing strategies. That is, we 
have put a premium on how to share information, but not 
necessarily how to secure the information.
    Mr. Ratcliffe. Well, you mentioned underinvesting. But 
Federal agencies face similar problems with budgets and 
resources all the time.
    I guess I would like to know if you have any 
recommendations for Federal CISOs with respect to devoting 
those resources to combat this particular threat.
    Mr. Gerstein. Well, Mr. Chairman, it's really above the 
CISO. It's about strategic decisions to protect the network. 
What we lack in this entire architecture is a governance 
structure and a National cybersecurity strategy.
    I go back to several months ago now. The Department of 
Defense put out its own defense cybersecurity strategy. 
Normally, when there is such a strategy, you would expect that 
there would have been a National strategy that would have 
helped to inform.
    Such is always the case, for example, with the National 
security strategy of the United States coming out, and then the 
National military strategy falls shortly thereafter. One would 
expect and one would hope there would be such a thing as a 
National cybersecurity strategy.
    This strategy, as I mentioned in my opening remarks, should 
really think about, what is the doctrine for deterrence, how do 
we tell potential adversaries what the consequences are for 
actions in cyber space, how do we find the proper balance 
between the security of the network and the privacy of 
individuals? These are trade-off questions that have to be 
addressed in such a strategy.
    Mr. Ratcliffe. So, Dr. Gerstein, you heard Dr. Ozment's 
testimony. I asked him specifically about--and he was able to 
confirm--the published reports out there that this breach was 
accomplished by using authorized credentials.
    So, in effect, the user here with respect to the network 
appeared to be an authorized user. We seem to be increasingly 
seeing that as a cyber intrusion method in other places besides 
the OPM attack.
    So I guess I would like to hear your perspective on what 
cybersecurity measures and best practices can be employed to 
identify those anomalies where you have authorized users in 
places where they shouldn't be.
    Mr. Gerstein. So there are a number of different strategies 
that one can consider. Certainly you brought out multi-factor 
authentication. That is key. PIV cards. Incorporating those 
into your architecture is also key. I think we need to look 
hard now at, do we develop enclaves? Let me just talk for a 
moment about that.
    Today we have a system, an internet, which has evolved over 
the past 40 years in which you have normal information sharing. 
I use the tongue-in-cheek grandma's recipes residing on the 
same system that you have industrial control systems for 
hydroelectric plants and even nuclear facilities.
    The question has to be: Is it now time to segment the 
internet such that you do develop secure enclaves that have a 
greater degree of security? This is something that should be 
considered as part of this National cyber strategy that I've 
alluded to.
    Mr. Ratcliffe. Thank you, Dr. Gerstein. My time has 
expired.
    The Chair now recognizes the Ranking Member, Mr. Richmond. 
The gentlemen yields.
    The Chair recognizes the gentleman from Rhode Island, Mr. 
Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    I want to thank the Ranking Member for yielding.
    Dr. Gerstein, thank you for your testimony. It has been 
very insightful.
    I want to begin by saying I completely agree with you on 
the National cyber strategy. In fact, the legislation that I 
have introduced in now a few Congresses, including this one, 
the Executive Cyberspace Coordination Act, would basically put 
somebody in charge, giving them both policy and budgetary 
authority. That act would also require a National strategy to 
be completed within 1 year. So you and I are of like mind on 
that subject.
    So, Dr. Gerstein, in your written testimony, you say that 
balancing data access and security has been a driving factor in 
cybersecurity strategies. I understand that this is often a 
fundamental trade-off and that we must support research and 
development to allow us to better achieve both goals.
    But I wonder if a bigger problem in many agencies like, 
say, OPM is that the security risk assessments are not even 
being conducted adequately. In other words, there is not so 
much a conscious decision to prize usability at the expense of 
security, but a lack of understanding that security is being 
comprised. Is that a fair analysis?
    Mr. Gerstein. Yes, sir. I think there is some of that. But 
I do believe that some of the recent legislation--I think the 
implementation of EINSTEIN and CDM across the .gov space will 
be important.
    We have to continue, though, to stress to all elements of 
the network, which includes the personnel and their terminal 
devices, how important they are as a first line of defense.
    Many of the intrusions that occur are due to people not 
understanding issues such as phishing attacks, spear-phishing 
attacks, and, therefore, opening up their networks through 
inadvertently opening up a piece of software that contains, 
say, malware.
    Mr. Langevin. Thank you.
    So, Dr. Gerstein, I sincerely believe that we are going to 
keep seeing breaches of sensitive Government networks, 
unfortunately, until we start holding attackers accountable.
    This is not to absolve OPM for the weak cybersecurity 
posture. Far from it. But I do believe that the administration 
and Congress have to take stronger actions in response to cyber 
attacks.
    Do you believe that we have sufficiently explored options 
for deterrence? What avenues would we be exploring?
    Mr. Gerstein. Absolutely not, sir. I think we have much 
more to do in cyber deterrence. Today we're having discussions 
about what constitutes an attack and what level of intrusion is 
going to be acceptable on networks. I take you back to the Cold 
War when there was spying going on between adversaries within 
the Warsaw Pact and NATO.
    So we have not yet said what is going to be our response to 
such intrusions. Are we going to just consider them to be the 
course of doing business or are we going to react?
    I would presume that, if we did talk about deterrence in a 
realistic and measured way, that we would come up with limits 
on what we are prepared to accept before taking actions. These 
actions need to be thought of across the full range, from 
economic- and political-type activities and, if necessary, even 
considering use-of-force activities. But we have not had those 
discussions across the U.S. Government.
    Mr. Langevin. Could you speculate on some of what those 
actions would be beyond the broad categories that you talked 
about?
    Mr. Gerstein. Well, of course, there are a number of 
opportunities to use organizations such as United Nations and 
things at the lower end, such as demarche. You can have 
economic sanctions. You can do something that is very 
asymmetric. So you could have a blockade, for example.
    But I'm not suggesting any one set of actions, rather, that 
we need to, as a Government, consider what actions would be 
reasonable, given the activities that are on-going.
    Mr. Langevin. Well, I clearly agree that we should have 
some more international rules of the road. This isn't just a 
U.S. problem, but an international one. Right now it is kind of 
the Wild West out there.
    On the experience of the cyber attacks that we have 
experienced here in the United States--and OPM is a perfect 
example--our adversaries or these hackers are eating our lunch, 
and we are not seeming to be able to stop it and not doing much 
about it.
    That should change. We have to change the calculus so that 
our enemies or adversaries know that there is a cost to hacking 
our systems and stealing our data.
    So, with that, Mr. Chairman, I will yield back.
    I thank Dr. Gerstein for his testimony.
    Mr. Ratcliffe. The gentleman yields back.
    The Chair now recognizes the gentleman from Pennsylvania, 
Mr. Perry.
    Mr. Perry. Thank you, Mr. Chairman.
    Hey, Dr. Gerstein. Good to see you again.
    So you were sitting here during the last panel and the 
questioning that I had. I just would like to get your 
perception, if you recall.
    Is DHS the correct place? Do they have the authority? What 
are the consequences? Your perception there. Also, just 
thinking through some of your comments, National security 
strategy, National military strategy, National cybersecurity 
strategy, your thoughts on where--where would be the repository 
of that strategy? Who would develop it? Maybe some tenets of 
the strategy.
    Also, what is topical today just came to me while we are 
having this discussion. So maybe it has already been brought 
up. But the naming convention, circumstances that we find 
ourselves in now, is that something that should be included in 
this strategy? Should the United States allow that to leave the 
purview of our country and be more international with some 
other international body? How does that tie in? Then we can 
probably just have an on-going discussion based on your 
answers.
    Mr. Gerstein. So I was jotting down some. That was quite a 
long list. But let me start at the top with the National 
cybersecurity strategy.
    What I would say there is that I think the precedent 
exists. The National security strategy of the United States 
comes from the White House, and it's an interagency product. 
The interagency gets a chance to comment and to provide input.
    I would see a National cybersecurity strategy similarly 
that would have the responsibility to be developed by the White 
House and coordinated and discussed within the interagency. So 
I think that's key.
    On the question of authorities, I believe that the 
legislation concerning information sharing is critical. That's, 
of course, the work that this body has done. I think that's 
critical. Hopefully, in some form--I don't take a position on 
whether each word is correct. But, rather, the general concept 
of information sharing between the Government and industry in 
this space is absolutely imperative.
    When you look at capabilities such as CDM and EINSTEIN, 
certainly EINSTEIN relies on signatures. The only way to get 
signatures is if there is information sharing. So it's 
absolutely essential.
    On the broader question of authorities, I think for right 
now the biggest issue that remains is this idea of governance. 
Several years ago there were discussions on-going between three 
Cabinet departments about who would have authorities in cyber 
space, Department of Justice, FBI, and Department of Defense, 
and Department of Homeland Security.
    I still believe that there are likely some seams that need 
to be considered, and I would think those should be considered 
as part of the National cybersecurity strategy. That would give 
an opportunity for the complete discussion to ensure that the 
authorities are appropriate.
    Mr. Perry. So two other questions in the time I have left.
    The naming convention, just your thoughts on that. Just as, 
you know, it is not appropriate or proper to set up a shotgun 
in your cabin while you are away in case somebody shows up and 
they open the door, it is locked, and so it is set with a 
trigger with a string or something to shoot the intruder, that 
is not appropriate.
    But would it be appropriate in cyber space to set up--and 
is it possible to set up a system where you are hacked by XYZ 
country or company, the Federal Government or what have you, 
that there is a response that is elicited by that attack that 
does something similar to what happened to Aramco's computer 
which rendered them useless? I mean, is that a possibility? 
Would that be something that would be appropriate or is 
contemplated?
    Mr. Gerstein. So on the question first on the naming 
convention, I guess what I would say on this, which I think is 
pretty important to consider, is the naming convention is, with 
respect to the internet, a fairly low-level discussion. It's a 
technical discussion about how things are named. The sharing of 
that throughout the globe, I think that would be fine.
    But I think the more important discussion is at a higher 
level: What is acceptable internet behavior for a State to 
allow within its borders? Those sorts of discussions have been 
had really more on an informal basis and not so much directly 
with all States like we do with sort of a typical arms control 
agreement.
    This one has been--there have been some discussions with 
particular States, and they've been on a bilateral basis where 
they've talked about behaviors. But these continue to evolve.
    So on your question about having some sort of shotgun 
shell, here's what I would be concerned about. This goes back 
to the question of attribution. So imagine if you think you 
understand who the perpetrator of the act is, but you have no 
way to definitively attribute a particular act. If you were to 
take a catastrophic attack against who you think is the 
perpetrator and you get it wrong, you would be doing a lot of 
damage.
    So this goes back to this question of you can't just depend 
on attribution, retribution, proportionality, laws of war-type 
activities, but you also have to go to the front end and say, 
``How do I deter? How do I change the calculus of a potential 
adversary who is thinking about intruding on my networks? Also, 
how do I deny? So I won't be able to stop everything. But can I 
set up enclaves so that I'm not exposing my entire network, so 
I'm not exposing 4 million personnel records or perhaps 18-30 
million''--as was reported today--``How do we do a better job 
in parsing that off so that we're not exposing our entirety of 
PII information?''
    Mr. Ratcliffe. The gentleman yields back.
    The Chair now recognizes the Ranking Member, the gentleman 
from Louisiana, Mr. Richmond.
    Mr. Richmond. Thank you, Mr. Chairman. I will try not to 
take up all of my time.
    I will start where my colleague Mr. Perry left off. You 
know, as I think of sports and other things, even war, I mean, 
the best defense is a good offense.
    So the question for me becomes maybe not the shotgun 
approach. But what about the Trojan horse approach, that we 
embed in all of our information something that, if you ever 
take all of our information, we just activate it, which wipes 
your computer out?
    Look, I am not a programmer. I don't know code. I don't 
know any of that. But there are people that do. I would just 
think that we should be able to be in a position that we can 
put land mines in all of our data that we can activate whenever 
we need to activate it. If you just happen to have it by 
accident, so be it, because you shouldn't have it.
    Because I think that, you know, for folks back home, the 
major concern is about our ability to sense these threats, our 
ability to stop them. I guess the pervasive question is just, 
where does it end? I don't think anybody fears us enough to not 
do this.
    So the question becomes: Is there anything we can do 
besides defense to make hackers think twice about messing with 
us or our information?
    Mr. Gerstein. So there are people who are thinking about 
offensive actions and how to use offensive capabilities. 
Obviously, that discussion needs to be had in a closed session, 
a Classified session.
    But I think, from a general standpoint, again, I go back to 
establishing attribution is really key to being able to take 
any action, whether that action is legal action, for example, 
in the case of the Chinese hackers, where we indicted them in 
U.S. courts. So there are opportunities to do those kind of 
things if one can establish attribution.
    You know, one topic that we haven't talked as much about 
today that concerns me greatly is the sensing capacity from the 
standpoint of our networks today are likely penetrated with 
either zero day attacks which have not been executed and are 
awaiting a point in time at which they would be executed or 
there's an on-going attack. I mean, the likelihood of such a 
case is very high.
    So I worry about being able to establish security on our 
networks today with the capabilities that we have. As has been 
pointed out both by the Members of this subcommittee as well as 
by the other two witnesses, EINSTEIN and CDM have been slow to 
roll out, and we're still in the process of rolling them out.
    Even once that occurs, there will be developmental periods 
and the departments and agencies will have to ensure that they 
have the proper procedures in place. So it's not just the DHS 
availability of the different programs, but it's the 
implementation within the departments and agencies that's key.
    To the point that you asked about, you know, can we do some 
sort of Trojan horse, this is where research and development 
and follow-on, hopefully, with acquisition is key. You have to 
have robust research and development programs that are designed 
to make headway in this very competitive environment called 
cyber space. Right now we are largely in a defensive posture 
where an attack is discovered and then we take some sort of 
action to respond, mitigate, recover, resiliency, those sorts 
of action.
    Mr. Richmond. I will yield the remainder of my time to my 
colleague, Mr. Perry.
    Mr. Perry. Thank you, Mr. Richmond.
    So when you talk about attribution, much like what Mr. 
Richmond was thinking, I was thinking of, you know, if your 
computer, if your network, has our data--and I like the land 
mine concept, but, essentially, it is self-actuating or maybe 
it can be actuated by somebody on our side of the fence, so to 
speak, that there are consequences.
    I am trying to think about how and maybe why I care whether 
somebody that didn't necessarily do the hack, so to speak, has 
the latest plans or the plans to our latest fighter or our 
personnel data. Do I care how they got them or why they got 
them? They are not supposed to have them. They are critical to 
us.
    What does it hurt to just obliterate their system and make 
it nonfunctional as a consequence and maybe even everybody down 
the line, if that becomes an issue? Do hackers steal 
information and then store it on somebody else's computer?
    Mr. Gerstein. They do, indeed. In fact, they even use other 
people's computers in what we call botnets. So a botnet is the 
use of another computer. You load the software on and you have 
attacks that emanate from, if you will, a computer that has 
nothing to do with the attack other than it is used as a 
platform.
    In fact, if you look at the attacks against the financial 
sector that were occurring with great regularity 3, 4 years 
ago, those attacks were botnet attacks. They were denial, 
distributed----
    Mr. Perry. So is there no way--I mean, I think over time, 
with your indulgence, Mr. Chairman, the investigators follow 
the thread back through the botnet computer--right?--to find 
the original source. I mean, if that capability exists now, why 
can't the capability go along with it that follows the thread 
back to the origination and then takes care of business where 
it occurred?
    Mr. Gerstein. Well, Congressman, I'm not saying that it 
couldn't. I guess what I'm saying is I would go back to we need 
a robust research and development program that looks at all 
alternatives.
    Look at iPhones or cellular telephones today. They now come 
equipped with a kill switch so that, if your phone has been 
stolen, you have the ability to turn off that phone and make it 
so it is no longer anything viable for someone to use. It 
erases all the data.
    So there could be some sort of capability. I would prefer 
not to speculate on the specifics, but rather say that a robust 
research and development program should be looking at how do we 
secure hardware, software, enclaves, networks, in a more 
cohesive fashion than perhaps we have thought about heretofore.
    Mr. Perry. Thank you, Mr. Chair. I yield.
    Mr. Ratcliffe. The gentleman yields back.
    I thank Dr. Gerstein for his valuable testimony. I thank 
the Members for their questions today.
    The Members of the committee may have some additional 
questions for you, Dr. Gerstein. If that is the case, we will 
ask you to respond to those in writing.
    Pursuant to committee rule 7(e), the hearing record will be 
held open for a period of 10 days.
    Without objection, the subcommittee stands adjourned.
    [Whereupon, at 4:28 p.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

         Questions From Chairman John Ratcliffe for Andy Ozment
    Question 1. Today's agency networks are not compartmentalized and 
as we've seen with several of the recent hacks, once the exterior 
perimeter is breached, the hacker remains undetected for months and is 
able to exploit vulnerabilities within the network(s) without passing 
through additional inspection or security measures. There has been a 
shift in the private sector towards a Zero Trust model of information 
security where the networks are segmented and additional security is 
brought within the network between compartments, thus limiting the 
ability for the hacker to move internally.
    This is becoming an important part of the so-called ``defense-in-
depth'' approach that agencies use today. Is DHS promoting this 
practice across agencies?
    Answer. Response was not received at the time of publication.
    Question 2. In April 2014, Deputy Under Secretary for Cybersecurity 
Phyllis Schneck testified before the Senate Appropriations Committee, 
``the lack of clear and updated laws reflecting the roles and 
responsibilities of civilian network security caused unnecessary delays 
in the incident response . . . In many cases 5 to 6 days were lost in 
responding to the Heartbleed incident as a result.''
    As of December 2014, FISMA was updated to give DHS the authorities 
needed to carry out the operational mission to protect the .Gov domain. 
Now that DHS has the needed authorities, what is in the way of fully 
implementing the needed capabilities to protect our Government 
networks? How does DHS plan to implement FISMA's new authorities?
    Answer. Response was not received at the time of publication.
       Questions From Honorable James R. Langevin for Andy Ozment
    Question 1a. Dr. Ozment, is DHS treating the breach of personnel 
records and the breach of the SF-86 forms as a single incident or 
separate incidents?
    What criteria does DHS use in making such a determination?
    Answer. Response was not received at the time of publication.
    Question 1b. What specific criteria did DHS use in making the 
determination regarding the OPM breach?
    Answer. Response was not received at the time of publication.
    Question 1c. What was the time line for said determination?
    Answer. Response was not received at the time of publication.
    Question 2a. Dr. Ozment, I understand that OPM discovered the most 
recent breach after upgrading their security based on recommendations 
from US-CERT following the 2014 breach.
    Was DHS aware of the indicator of compromise--not its existence on 
the network but just the indicator itself--OPM used in making that 
discovery prior to OPM's alerting DHS?
    Answer. Response was not received at the time of publication.
    Question 2b. How did OPM acquire that indicator of compromise?
    Answer. Response was not received at the time of publication.
    Question 3a. Dr. Ozment, in your testimony, you reference a binding 
operational directive issued recently by DHS. The directive instructs 
agencies to close known vulnerabilities on their internet-facing 
systems.
    Why weren't agencies already closing these known vulnerabilities?
    Question 3b. Given that the statutory authority has been in place 
since December, why did DHS wait until May to issue the directive?
    Answer. Response was not received at the time of publication.
    Question 3c. Was the issuance of the directive in any way 
influenced by the OPM breach?
    Answer. Response was not received at the time of publication.
    Question 4. Dr. Ozment, it is clear that OPM's security posture was 
poor prior to the breach discovered in March 2014--US-CERT confirmed 
this, and OPM's Inspector General has been saying so since at least 
2007. Do you believe DHS could have done more to help prevent either 
this most recent breach or the one earlier in 2014? If not, why not?
    Answer. Response was not received at the time of publication.
    Question 5. Dr. Ozment, in your opinion based on your experience 
with DHS, is it reasonable to expect agencies to be primarily 
responsible for defense of their own networks?
    Answer. Response was not received at the time of publication.
    Question 6. Do agencies have the management capabilities to 
understand the risks they face and make informed decisions about the 
resources they need--relative to other demands--to protect their 
systems and respond and recover from breaches?
    Answer. Response was not received at the time of publication.
    Question 7. Do agencies have the acquisition capabilities to 
appropriately contract for cybersecurity services?
    Answer. Response was not received at the time of publication.
    Questions From Chairman John Ratcliffe for Gregory C. Wilshusen
    Question 1. How would you characterize the current state of 
cybersecurity for Federal civilian information systems?
    Answer. The current state of cybersecurity for Federal civilian 
information systems is that these systems are at high-risk of 
unauthorized access, use, disclosure, modification, and disruption. In 
fiscal year 2014, Federal agencies reported 50,289 cyber-related 
information security incidents to the U.S. Computer Emergency Readiness 
Team (US-CERT).\1\ These incidents included unauthorized access, 
improper usage, suspicious network activity, social engineering, 
malicious code, lost or stolen equipment, policy violations, phishing, 
and denial of service.
---------------------------------------------------------------------------
    \1\ The number of cyber-related information security incidents 
(50,289) reported by Federal agencies was determined by subtracting the 
number of reported non-cyber-related information security incidents 
(16,879) from the total number of information security incidents 
(67,168) reported by Federal agencies in fiscal year 2014.
---------------------------------------------------------------------------
    Cybersecurity for Federal civilian information systems needs 
significant improvement. Agencies continue to have shortcomings in 
assessing risks, developing and implementing security controls, and 
monitoring results. As I have previously testified,\2\ for fiscal year 
2014, 19 of the 24 Federal agencies covered by the Chief Financial 
Officers (CFO) Act reported that information security control 
deficiencies were either a material weakness or significant deficiency 
in internal control for financial reporting purposes.\3\ In addition, 
most agencies have weaknesses in five key control categories.\4\ For 
example, 22 of the 24 CFO Act agencies had weaknesses with limiting, 
preventing, and detecting inappropriate access to computer resources, 
and managing the configuration of software and hardware. Moreover, the 
Inspectors General at 23 of the 24 agencies cited information security 
as a major management challenge for their agency.
---------------------------------------------------------------------------
    \2\ GAO, Cybersecurity: Actions Needed to Address Challenges Facing 
Federal Systems, GAO-15-573T (Washington, DC, Apr. 22, 2015).
    \3\ A material weakness is a deficiency, or combination of 
deficiencies, that results in more than a remote likelihood that a 
material misstatement of the financial statements will not be prevented 
or detected. A significant deficiency is a control deficiency, or a 
combination of control deficiencies, in internal control that is less 
severe than a material weakness, yet important enough to merit 
attention by those charged with governance. A control deficiency exists 
when the design or operation of a control does not allow management or 
employees, in the normal course of performing their assigned functions, 
to prevent or detect and correct misstatements on a timely basis.
    \4\ These categories include controls that are intended to: (1) 
Limit, detect, and prevent unauthorized access to computer resources; 
(2) manage the configuration of software and hardware; (3) segregate 
incompatible duties to ensure that a single individual does not have 
control over all key aspects of a computer-related operation; (4) 
planning for continuity of operations in the event of a disaster or 
disruption; and (5) implementing agency-wide security management 
programs that are critical to identifying control deficiencies, 
resolving problems, and managing risks on an on-going basis.
---------------------------------------------------------------------------
    Question 2. In your view, who in the Federal Government is 
responsible for protecting Federal civilian information systems? What 
is DHS's role, and what is each Federal agency's role? Do you think 
their respective roles are clearly defined? Who is responsible for 
enforcing the standards and processes?
    Answer. Every single user of Federal civilian information systems 
is responsible for protecting the systems. In addition, the Secretary 
of DHS, heads of Federal agencies, and the Director of the Office of 
Management and Budget (OMB) have key responsibilities for protecting 
these systems, as discussed below.
    The Federal Information Security Modernization Act of 2014 (FISMA 
2014) assigns DHS a key role in protecting Federal civilian information 
systems.\5\ With an exception for National security systems, the 
Secretary of DHS is to administer the implementation of agency 
information security policies and practices for information systems. In 
this regard, the Secretary of DHS is responsible for:
---------------------------------------------------------------------------
    \5\ The Federal Information Security Modernization Act of 2014 
(Pub. L. 113-283, Dec. 18, 2014) largely superseded the very similar 
Federal Information Security Management Act of 2002 (Title III, Pub. L. 
No. 107-347, Dec. 17, 2002).
---------------------------------------------------------------------------
  <bullet> assisting the director of OMB in carrying out his or her 
        authorities and functions overseeing agency information 
        security policies and practices;
  <bullet> developing and overseeing the implementation of binding 
        operational directives to agencies to implement the policies, 
        principles, standards, and guidelines developed by the director 
        of OMB and the requirements of the Act;
  <bullet> monitoring agency implementation of information security 
        policies and practices;
  <bullet> convening meetings with senior agency officials to help 
        ensure effective implementation of information security 
        policies and practices;
  <bullet> coordinating Government-wide efforts on information security 
        policies and practices; and
  <bullet> providing operational and technical assistance to agencies 
        in implementing policies, principles, standards, and guidelines 
        on information security.
    The head of each Federal agency is to provide information security 
protections commensurate with the risk and magnitude of harm resulting 
from unauthorized access, use, disclosure, disruption, modification, or 
destruction of information systems used or operated by an agency or by 
a contractor of an agency or other organization on the agency's behalf. 
To this end, each agency is to develop, document, and implement an 
agency-wide information security program to provide information 
security for the information and information systems that support the 
operations and assets ofthe agency, including those provided or managed 
by another agency, contractor, or other source.
    FISMA 2014 helped to clarify the roles of OMB, DHS, and Federal 
agencies in protecting Federal civilian information systems and 
bestowed additional esponsibilities upon DHS for ``administering the 
implementation of agency information security policies and practices 
for information systems.'' However, testimony by a DHS official at 
recent Congressional hearings suggests that agencies have questioned 
how sharing network data with DHS for security monitoring purposes 
relates to their existing statutory restrictions on the use and 
disclosure of agency data. Thus, the extent to which DHS can compel an 
agency to take a specific action in the name of information security 
may be unclear.
    The director of OMB is responsible for enforcing information 
security standards and processes. FISMA 2014 states that the director 
shall oversee agency information security policies and practices 
including overseeing agency compliance with the requirements of the 
act. FISMA 2014 also states that the director can use any authorized 
action under section 11303 of title 40 to enforce accountability for 
compliance with such requirements. The authorized actions include 
recommending a reduction or an increase in the amount of information 
resources that the heard of the executive agency proposes for its 
budget, reducing or otherwise adjusting apportionments and 
reapportionments of appropriations for information resources, and using 
other administrative controls over appropriations. The secretary of DHS 
is responsible for assisting the director in carrying out this 
authority and function.
    Question 3. GAO reported in 2014 that agencies' information 
security was a major struggle for 23 of 24 agencies. One major weakness 
identified was agencies' lack of oversight of contractor standards, 
which resulted in an inconsistent implementation of security standards.
    What should Federal agencies be doing to address this problem? What 
is the role for DHS?
    Answer. In August 2014, we recommended that agencies establish and 
implement IT security oversight procedures for contractor-operated 
systems.\6\ Key procedures for effective oversight that agencies should 
implement include:
---------------------------------------------------------------------------
    \6\ GAO, Information Security: Agencies Need to Improve Oversight 
of Contractor Controls, GAO-14-612 (Washington, DC: August 8, 2014).
---------------------------------------------------------------------------
  <bullet> communicating security and privacy requirements to 
        contractors;
  <bullet> selecting and documenting controls securing Federal 
        information;
  <bullet> selecting an independent assessor to evaluate contractor 
        security;
  <bullet> developing and executing a test plan for assessing security 
        controls;
  <bullet> recommending remedial actions to mitigate identified 
        vulnerabilities;
  <bullet> developing and implementing plans of actions and milestones 
        for remediation efforts; and
  <bullet> monitoring implementation and effectiveness of remedial 
        actions.
    DHS has a role in monitoring agency implementation of information 
security policies and practices and in providing operational and 
technical assistance to agencies in implementing policies and 
guidelines on information security. In this role, DHS can monitor and 
assist agencies with effectively overseeing their contractors' 
implementation of appropriate security controls over Federal 
information and systems.
    Question 4. The Binding Operational Directive issued by Secretary 
Johnson directs agencies to fix the most critical vulnerabilities on 
their systems within 30 days. This seems like going after the lowest-
hanging fruit. Why not direct agencies to address all their 
vulnerabilities not just the most critical ones?
    Answer. Directing agencies to fix the most critical vulnerabilities 
helps to prioritize agency efforts by focusing remediation efforts on 
the vulnerabilities that are more likely to be exploited and cause most 
harm to the agency. In an environment of constrained resources, this is 
prudent. Once the most critical vulnerabilities have been mitigated, 
agencies should then proceed to resolve lower-priority vulnerabilities.
   Questions From Chairman John Ratcliffe for Daniel M. Gerstein \1\
---------------------------------------------------------------------------
    \1\ The opinions and conclusions expressed in this testimony are 
the author's alone and should not be interpreted as representing those 
of RAND or any of the sponsors of its research. This product is part of 
the RAND Corporation testimony series. RAND testimonies record 
testimony presented by RAND associates to Federal, State, or local 
legislative committees; Government-appointed commissions and panels; 
and private review and oversight bodies. The RAND Corporation is a 
nonprofit research organization providing objective analysis and 
effective solutions that address the challenges facing the public and 
private sectors around the world. RAND's publications do not 
necessarily reflect the opinions of its research clients and sponsors.
---------------------------------------------------------------------------
   strategies for defending u.s. government networks in cyber space 
                              addendum \2\
---------------------------------------------------------------------------
    \2\ This testimony is available for free download at http://
www.rand.org/pubs/testimonies/CT436z1.html.
---------------------------------------------------------------------------
    Question 1a. From your time at the U.S. Department of Homeland 
Security Science and Technology Directorate what do you see as 
improvements that can be made to improve DHS' ability to assist Federal 
agencies secure Government networks?
    Answer. Cybersecurity must be looked at through the lens of a 
campaign plan. In such a plan, numerous initiatives must be implemented 
to ensure a layered defense, thereby increasing the difficulty of 
penetrating Government networks.
    EINSTEIN 3A and the Continuous Diagnostics and Mitigation (CDM) 
program are part of such a layered defense. These two systems are 
designed to work in tandem, with EINSTEIN 3A focusing on keeping 
threats out of Federal networks and CDM identifying risks inside 
Government networks. These programs are necessary, but they are not 
sufficient to ensure cybersecurity across Government networks. Other 
measures must be developed that compliment these programs.
    For example, hardware and software must be hardened. Enclaves can 
be developed and deployed using a combination of hardened hardware 
configurations in devices and operating software (such as network, 
data, access, and security management systems). In addition, newer 
concepts such as clouds and virtual machines are being used with some 
success to build enclaves to protect valuable data and sensitive 
computation. Emerging concepts under development--such as software-
defined networking, trusted protection modules, and secure-by-design 
software systems--may improve our ability to create secure enclaves in 
the future.
    Software assurance must continue to be a point of emphasis. New 
software must be developed that assures that products are free from 
vulnerabilities and perform as intended. Legacy systems must be 
evaluated to ensure that they have necessary security. In addition, 
information architectures--particularly software and database 
architectures--for our legacy systems should be rethought and perhaps 
overhauled for systems containing or dealing with personally 
identifiable information (PII). And consideration should be given to 
any future placement of especially sensitive information (such as PII) 
on secure sites. The Office of Personnel Management data breach should 
be a serious wake-up call to apply resources and common sense against 
these sensitive data.
    Personnel who operate the networks and users of the systems must be 
appropriately trained to understand and prevent the various types of 
cyber attacks they are likely to face. Examining previous attacks 
highlights the degree to which vulnerabilities result from insecurities 
caused by individuals' actions (for example, during phishing attacks).
    Information sharing is a critical component of cybersecurity. The 
current system of securing software vulnerabilities largely relies on 
discovering a network intrusion, identifying the attack signature, and 
developing and deploying patches to address the vulnerabilities. 
Therefore, information sharing is essential both to gain knowledge that 
an attack has occurred and to share mitigation procedures.
    Finally, inherent in efforts to secure the Federal cyber space is 
the critical need for a National Cybersecurity Strategy. Such a 
document would articulate concepts for governance of the .gov domain, 
as well as cyber doctrine for deterrence, denial, attribution, 
response, and resilience. Today, no such comprehensive document exists.
    Question 1b. What should S&T's role be in helping further develop 
these programs and future technologies?
    Answer. Research and development will be critical to identifying 
and deploying solutions to secure Federal networks. S&T must take the 
longer view of the security requirements for the Federal space. 
Additionally, the focus for DHS S&T should be to systematically examine 
the cybersecurity landscape and develop solutions that contribute 
directly to the future layered security architecture supporting 
Government networks.
    This examination also involves looking comprehensively at EINSTEIN 
3A and the CDM program to assess their effectiveness and to think more 
broadly about what the follow-on systems must look like to assure a 
more forward-looking posture.
    Given the importance of cybersecurity to the Department and its 
components for both securing their networks and supporting their 
missions, S&T must also assure a keen understanding of their 
operational and security requirements and look to align its research 
and development to address identified shortfalls and gaps.
    S&T can also serve an important function in assisting non-
Governmental entities, such as the critical infrastructure sectors, in 
coordinating research and development activities for security 
solutions. One such S&T program exists in the oil and gas sector, and 
expanding this program into other sectors could provide significant 
benefit.
    Question 2. In your short time at the RAND Corporation you have 
done extensive research in the cybersecurity field.
    Based on your research what more can be done to encourage Federal 
agencies to adopt the most basic network security standards such as 
proper cyber hygiene?
    Answer. Cybersecurity is not a one-time issue. That is, the 
Government cannot recruit a competent cyber workforce and train users 
to operate their information technology systems and expect that this 
will be sufficient. Rather, cybersecurity must receive constant 
attention, by all employees and at all levels.
    The cyber workforce must be trained and educated to have the latest 
knowledge and capabilities. They must be continuously challenged 
through exercises--including simulated and Red Team intrusions--to keep 
their skills honed. The Federal cyber workforce must also be 
continuously refreshed to attract the best and brightest to serve. 
Limited-term appointments (including the highly-qualified experts 
program) that allow industry experts to serve in Government for periods 
of 2 or 3 years can provide a necessary infusion of talent.
    Awareness campaigns serve to educate the workforce. The DHS ``Stop, 
Think, Connect'' campaign is an example of a program designed to 
increase personal awareness. In addition to awareness, training can be 
helpful as well. Individuals must be trained to recognize malicious 
cyber activity that could potentially surface during their interactions 
on Government information technology systems.
    CDM remains a critical component for supporting cyber hygiene on 
Government networks. When fully deployed, CDM will allow for 
understanding the network architecture and identifying in near real-
time the risks that are in the network by sensing vulnerabilities and 
anomalous behaviors that could that signal an attack is under way.
    Question 3. Federal agencies face similar problems with budgets and 
resources when trying to address cybersecurity.
    What recommendations do you have for DHS and Federal CISOs in 
devoting resources to combating this threat?
    Answer. DHS and Federal chief information security officers must 
receive necessary funding that allows for up-to-date information 
technology and security systems for their networks and the users that 
reside on those networks. In some regards, this requires a culture 
change. Typically, budgets have been allocated for ``mission'' 
activities first and have funded the security of internal networks at 
minimum levels. This means that fielding advanced cybersecurity systems 
and even up-to-date hardware and software does not receive the 
necessary funding to defeat the determined threats that are targeting 
Federal networks.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
